<html>
<title> - BEYOND NCLB: VIEWS ON THE ELEMENTARY AND SECONDARY EDUCATION REAUTHORIZATION ACT</title>
<body><pre>[Senate Hearing 112-875]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-875

 
     BEYOND NCLB: VIEWS ON THE ELEMENTARY AND SECONDARY EDUCATION 
                          REAUTHORIZATION ACT

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING BEYOND NCLB: VIEWS ON THE ELEMENTARY AND SECONDARY EDUCATION 
                          REAUTHORIZATION ACT

                               __________

                            NOVEMBER 8, 2011

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
87-633                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a>  

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman
 
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania   RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina         ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois           
RICHARD BLUMENTHAL, Connecticut      

                                       

                    Daniel E. Smith, Staff Director

                  Pamela Smith, Deputy Staff Director 

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, NOVEMBER 8, 2011

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     2
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     4
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................     5
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    14
Paul, Hon. Rand, a U.S. Senator from the State of Kentucky.......    28
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    37
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    41
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    45

                               Witnesses

Schnur, Jon, Co-Founder and Chairman of the Board, New Leaders, 
  New York, NY...................................................     6
Seaton, Charles, Teacher, Sherwood Middle School, Memphis City 
  Schools, Memphis, TN...........................................     9
Grier, Terry, Superintendent, Houston Independent School 
  District, Houston, TX..........................................    10
Luna, Tom, Idaho Superintendent of Public Instruction, Boise, ID.    11
    Prepared statement...........................................    12
Danks, Amanda, Lead Teacher, Wm. S. Baer School, Baltimore City 
  Public Schools, Baltimore, MD..................................    15
Geisselhardt, Pam, Gifted and Talented Coordinator, Adair County 
  Schools, Columbia, KY..........................................    15
Hess, Fredrick, Resident Scholar and Director of Education 
  Policy, American Enterprise Institute, Washington, DC..........    16
Beh Neas, Katherine, Senior Vice President for Governmental 
  Relations, Easter Seals, Washington, DC........................    20
Henderson, Wade, President and CEO, The Leadership Conference, 
  Washington, DC.................................................    25
Thomas, Elmer, Principal, Madison Central High School, Richmond, 
  KY.............................................................    27

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Alan Knapp, Director of National Policy--Partnership for 21st 
      Century Skills (P21).......................................    50
    National Alliance for Public Charter Schools, submitted by 
      Ursula Wright, Interim President & CEO.....................    51
    Letters:
        National Conference of State Legislatures................    53
        Melissa Bilash, Special Education Advocate, Wayne, PA....    55

                                 (iii)

  


     BEYOND NCLB: VIEWS ON THE ELEMENTARY AND SECONDARY EDUCATION 
                          REAUTHORIZATION ACT

                              ----------                              


                       TUESDAY, NOVEMBER 8, 2011

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room SD-106, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Hagan, Merkley, Franken, Bennet, 
Whitehouse, Enzi, Alexander, Isakson, Paul, and Murkowski.

                  Opening Statement of Senator Harkin

    The Chairman. This session of the Health, Education, Labor, 
and Pensions committee will come to order.
    Today's roundtable will focus on moving beyond NCLB, No 
Child Left Behind, the current iteration of the Elementary and 
Secondary Education Act, and toward reauthorization of the law 
for the needs of the 21st Century. Over the last 2 years, this 
committee has held 10 hearings on the full range of issues 
covered under the law. I've also held numerous stakeholder 
meetings and participated in lengthy negotiations with my 
Republican colleagues which resulted in a bill that was voted 
out of committee a little over 2 weeks ago.
    I believe the committee's bill takes several important 
steps forward by, first, resetting our national goal from 
students attaining proficiency to ensuring that students 
graduate from high school prepared for college and a career; 
second, by closing the comparability loophole and ensuring that 
title I schools get their fair share of Federal resources; 
third, incentivizing States and districts to develop rigorous 
teacher and principal evaluations and support systems, with the 
goal of continuous instructional improvement; and, fourth, 
providing a laser-like focus on turning around the bottom 5 
percent of schools and our Nation's dropout factories, the high 
schools that graduate less than 60 percent of their students, 
so that real change occurs in these schools, and the students 
who attend them have their academic trajectory set on a new and 
improved course.
    Today we will hear from key stakeholders in this debate who 
are impacted by the educational laws we pass in Washington. I 
am eager to hear each of their perspectives on how through this 
reauthorization we can provide States, districts, and schools 
with the tools they need to help all students succeed. I think 
we have provided some of those tools in our bill, but I'm sure 
that there are others who think that more can be done.
    One thing I know for certain is that the current law is not 
bringing about the significant improvements in student 
achievement that our country needs and that our children 
deserve. We must reauthorize to get out from under the 
ineffective No Child Left Behind Act.
    I expect our roundtable participants will discuss things 
they like about NCLB and our bill and things they would like to 
see changed. The goal today is to have an open discussion that 
informs the ongoing debate on ESEA reauthorization. And I thank 
all of our participants for being here today.
    I will now turn to Senator Enzi, the Ranking Member of our 
committee, who has been a strong partner in our work on ESEA 
reauthorization.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and I thank you for 
your willingness to work on this roundtable. Last month's 
markup of the Elementary and Secondary Education Act was a 
major step forward in the reauthorization process, which has 
been stagnant over the last 4 years since No Child Left 
Behind's authorization lapsed.
    I expect that there will be many more changes to the bill 
that we reported from the HELP Committee in order to gain 
broader support from members on both sides of the aisle and to 
further improve the draft. Marking up the bill was the first 
and important step in the reauthorization process.
    This is not to say that there was not a lot of work that 
occurred beforehand to get that bill to markup. To the 
contrary, we received testimony from over 70 witnesses, 
including the Secretary of Education, elementary education 
experts, State and district superintendents, principals, 
teachers, and representatives of special populations.
    The committee hosted a Web site where people from all 
across the United States could express views and solutions. And 
each Senator has heard from constituents both here in DC and 
in-state as to the concerns, fixes, and changes needed to 
improve the No Child Left Behind law. Now that we've marked up 
the bill in committee, we're holding this roundtable to get 
input on the bill. We want to know whether we're developing 
fixes to the problems that have been identified. We also want 
to hear about what else we need to do to improve the bill as we 
move forward.
    I want to thank today's panelists, each of whom comes from 
vastly different backgrounds and who can provide a range of 
observations on both current law and the draft bill that was 
reported out of the HELP Committee last month. Today, we'll 
continue the conversation of identifying problems on the ground 
with the current legislation and how we can create policy that 
provides flexibility for innovative approaches in the States.
    I'm also interested in hearing about the aspects of No 
Child Left Behind that today's panelists think should be 
retained as we move forward. Although there are many criticisms 
of No Child Left Behind, there are positives that we can point 
to as well. It moved the conversation around education in this 
country toward greater transparency of outcomes, and it invited 
parents to take a more active role in their child's education.
    I think that's been retained while shifting the emphasis 
from bad schools back to seeing that no child is left out. By 
shining a light on the children rather than just the schools 
and by making sure that data were broadly available, parents, 
teachers, principals, and taxpayers can have all the access to 
information they needed to make decisions about children, not 
just about schools. That's a profound development and one I'm 
committed to retaining and building upon as we move forward in 
the reauthorization.
    While No Child Left Behind pushed us to learn about and 
address many of the shortcomings in our schools, it also plays 
strict, one-size-fits-all rules on how States and local 
education agencies address deficiencies within schools. In the 
bill that we considered in committee, we removed most of those 
Federal mandates and asked States to intervene only in their 
bottom 5 percent of schools and those schools with the largest 
achievement gaps.
    However, parents and teachers will know how their children 
are doing because of the information that will be reported for 
every child. We want the results to follow the child so 
subsequent teachers can make a difference. For all other 
schools, we have told States that they must take the lead by 
returning responsibility for accountability, albeit it 
accountability that expects students to be college- and career-
ready, to determine what makes the most sense for their 
students.
    Although I hear the concerns of many that this bill does 
not include performance targets and other federally designed 
annual objectives, having the goals of students entering 
careers and college without the need for remediation is a goal 
that requires intensive, step-by-step, grade-by-grade planning, 
not some marker as to whether the student is prepared on the 
day they graduate. States will intuitively need to design 
rubrics that get their students on this path. They don't need 
unnecessary Federal micromanagement that says how and when they 
should reach each progressive milestone. And as a practical 
matter, we've learned that No Child Left Behind did not handle 
this responsibility very well through one-sized accountability 
systems that focused on schools.
    The bill we reported out of committee attempts to remove No 
Child Left Behind's oversized Federal footprint and return it 
to the States where it belongs and is most effectively 
implemented. As I stated during the markup, I do not support 
100 percent of the bill we reported out. I would have supported 
a much smaller Federal role and far fewer Federal programs.
    I also know that Chairman Harkin would have supported far 
greater federally designed accountability. That's the essence 
of working to get something done--a bill that will include the 
broader Senate, the broader Congress, stakeholders, and those 
interested in better instruction and a more prepared workforce 
moving forward so action can be taken instead of just wasted 
debate. But, again, this is another step in that process and we 
will be further informed as more voices are involved.
    With that said, I'll continue to support a lessened Federal 
role in schools, fewer Federal programs, and greater 
transparency to parents through reporting on the child's 
performance. We need to place more emphasis on seeing that each 
child is getting the education that we promised. I was 
disappointed the markup moved in the opposite direction within 
those three goals, so I encourage my colleagues to work 
together to improve this bill if we truly plan to move the 
legislation to the president's desk.
    In summary, I thank you, Mr. Chairman, for working with me 
on this hearing. I'm looking forward to continuing the 
substantive policy discussion from last month's markup.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Enzi.
    Let me just take a moment to introduce each of our 
participants. I know some Senators would like to also weigh in 
with their own introductions. I'll start on my right.
    First, we have Rick Hess, Resident Scholar and Director of 
Education Policy Studies at the American Enterprise Institute 
for Public Policy Research. Mr. Hess is also the author of the 
education column in Ed Week called ``Rick Hess Straight Up,'' 
the executive editor of Education Next, and a research 
associate with the Program on Education Policy and Governance 
at Harvard University.
    Next is Jon Schnur. Mr. Schnur is president of the board of 
directors and co-founder of New Leaders, formerly known as New 
Leaders for New Schools. He has developed national educational 
policies on teacher and principal quality, afterschool 
programs, district reform, charter schools and preschools.
     I will now invite Senator Paul to introduce the next 
person.
    Senator Paul. I'm pleased today to have Pam Geisselhardt 
here from Adair County. She's a gifted and talented teacher and 
I think one of the great successes of our Kentucky public 
education. And I really am glad that we were able to have this 
hearing to talk about the bill before it's final, to get your 
understanding and your input as to how we can change and make 
No Child Left Behind less of a Federal burden on teachers and 
principals and superintendents and all our educators.
    Thank you, Ms. Geisselhardt, for coming.
    The Chairman. Thank you, Senator Paul.
    Next, we have Tom Luna, the Idaho superintendent of Public 
Instruction. Mr. Luna currently serves as president-elect of 
the Council of Chief State School Officers. He will serve as 
president beginning in 2012.
    Next is Katy Beh Neas, a senior vice president for 
Government Relations with Easter Seals. She does incredible 
work with Easter Seals. I can attest to that over all the 
years. She is responsible for Easter Seals Federal and State 
public policy activities and is also co-chair of the Consortium 
for Citizens with Disabilities Education Task Force and has 
expertise in both disability education and early childhood 
education.
    Next, I would ask Senator Alexander for an introduction.

                     Statement of Senator Alexander

    Senator Alexander. Thank you, Mr. Chairman.
    We welcome Charles Seaton from Memphis. After a career or 
15 years in non-profit juvenile prevention programs, he decided 
he wanted to work with children in Memphis. He works in the 
eighth grade with exceptional children, special education 
children, and I understand that he is involved, as every 
Tennessee teacher and principal is right now, in the new 
teacher-principal evaluation process. We might hear something 
about that from him.
    Welcome.
    The Chairman. Thank you very much, Senator Alexander.
    Next, I would invite Senator Hagan to introduce Mr. Grier.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Mr. Chairman.
    I am proud to have an opportunity to introduce an old 
friend of mine, a proud North Carolinian and an East Carolina 
University Pirate and one of this country's foremost education 
leaders and innovators, Dr. Terry Grier. While Dr. Grier has 
served as a superintendent for nine school districts across six 
States, he has experienced the public education system from all 
levels, as a student in Fairmont, North Carolina; a graduate of 
East Carolina University and Vanderbilt; and as a teacher, a 
coach, and a high school principal.
    I first met Dr. Grier in 2000 when he became the 
superintendent of my hometown, the county of Guilford County in 
North Carolina. I happened to represent that county in the 
State Senate at the time.
    And during his 8 years in Guilford County, Dr. Grier led 
the district as it cut its dropout rate in half to less than 3 
percent, increased the high school graduation rate from 63 
percent to nearly 80, received one of the largest private 
investments ever in a public school system from the Joseph M. 
Bryan Foundation and the Center for Creative Leadership to help 
train school leaders, and established one of the country's 
first early college high schools. And as we know, today, early 
college institutes across the country are widely seen as one of 
the most effective ways to steer our low income students on a 
path to success.
    Then Dr. Grier continued his track record in San Diego, 
where he helped reduce the dropout rate by 50 percent and 
increased scores on the California Standards Test to all-time 
district highs. In 2009, Dr. Grier became superintendent of the 
Houston Independent School District, the seventh largest school 
district in the Nation with more than 200,000 students.
    In Houston, his initiatives continued to produce results 
for schools and students. And last month, it was announced that 
the Houston Independent School District landed 87 schools on 
the 2011 list of the State's high performing schools, by far 
the leader among the urban school districts in the State.
     I am pleased and honored to welcome my old friend, Dr. 
Terry Grier, to this committee.
    Thank you.
    The Chairman. Thank you very much, Senator Hagan.
    Senator Mikulski could not be here today, but she wanted to 
express her definite appreciation to you for all that you do 
and for being here today.
    Next is Amanda Danks.
    Ms. Danks teaches special education in Baltimore City 
Public Schools--currently teaches at the William S. Baer 
School, a school for students with severe disabilities and who 
are medically fragile. In addition to her school 
responsibilities, Ms. Danks also serves as a resident advisor 
for new special education teachers and works with the families 
of children with autism to support them in their homes and 
communities.
    Next to Amanda, Mr. Wade Henderson. Mr. Henderson is the 
president and CEO of the Leadership Conference, formerly known 
as the Leadership Conference on Civil and Human Rights. He also 
heads up the Leadership Conference Education Fund. And prior to 
these roles, Mr. Henderson was the Washington Bureau director 
of the NAACP.
    Finally, I'd like to invite Senator Paul to introduce our 
last witness.
    Senator Paul. I'd like to welcome today Elmer Thomas, who 
is the principal of Madison Central High School in Richmond, 
KY. He is the vice president of the Kentucky Association of 
Secondary School Principals. This year, he was the Kentucky 
principal of the year. And has spent time working in his school 
on the Focus and Finish Program which identifies struggling 
seniors and creates opportunities to have career certification 
and work-study programs. We're very happy to have Principal 
Elmer Thomas with us here today.
    The Chairman. Thank you very much. And thank you all for 
being here for this very important discussion.
    Mr. Hess and Mr. Schnur, I'm told, may have to leave us 
early around 11:30. We understand your busy schedules and 
appreciate that you could be here. And that goes for all of our 
panelists. Thank you all for being here.
    Before we start, let me explain the format of a roundtable. 
I'll start the discussion by asking a question of one of the 
panelists. That person will answer. If one of the panelists 
wants to respond to the question as well or to something the 
panelist has said, take your name tent and put it on its end, 
like that. That way, I'll know to call on you.
    Or if a committee member wants to ask a question or a 
followup or an intervention, I ask them to do the same. We 
usually have a lot of folks who want to talk. I'll recognize 
someone and we'll continue the conversation. This won't be like 
a formal hearing, although it is being recorded.
    I'll ask different committee members to join in asking 
questions as well. We'll try to keep the discussion flowing 
while being respectful of one another, and I hope the result 
will be a good in-depth conversation regarding the bill. I'd 
just also ask everyone to refrain from giving speeches. Well, 
if they're a couple of minutes long, that's OK--but long 
speeches.
    Given that we may lose you early, I'll start with Mr. 
Schnur.
    Can you tell us what you believe are the strengths of the 
bill that the committee has passed or how you think it could be 
improved?

STATEMENT OF JON SCHNUR, CO-FOUNDER AND CHAIRMAN OF THE BOARD, 
                   NEW LEADERS, NEW YORK, NY

    Mr. Schnur. Thank you so much, Chairman Harkin, Senator 
Enzi, Senator Alexander, Senator Hagan, members of the 
committee. It's an honor to be with you, and I must say you are 
tackling one of the most pressing priorities for the country. 
And the blend of addressing education as both a national 
priority and a State and local responsibility is a delicate 
one, and I understand there are issues at play in this bill on 
that.
    To answer your question, I've been in dozens and dozens of 
schools around the country looking at where we have leaders 
working to improve often low achieving schools, urban schools, 
some rural schools. And I think we've seen some lessons emerge 
from those. I'll mention a few of those, and then, to me, take 
the implications of what I think are a couple of the biggest 
positive aspects of this bill and a couple of areas that I 
think really could be improved.
    When we've looked at the schools, we've analyzed where 
we've got schools that are making dramatic progress, including 
serving low-income kids, kids of color, kids with special 
needs, kids who many people in the society don't think can 
achieve. And we've got actual examples, and you've seen some of 
these. We're getting dramatic progress.
    And we've got some of our own new leaders, new leaders from 
the schools who actually are in schools that have gotten 
incremental progress. We've analyzed the difference--a few 
trends we've seen.
    First, in all the schools where there's been progress, 
there is really genuinely high expectations for our kids to 
achieve, specific expectations that get kids on track to be 
ready, not just for doing a little bit better, but for success 
in college and careers.
    Second, there is in these schools--and we didn't realize 
this 10 years ago when we started our principal training 
program. There is a focus in the school on constant improvement 
of teaching and feedback to improve the quality of teaching 
regularly in the school, because teachers are not just born. 
You've got some great teachers, but teachers who are working at 
it with coaching can make dramatic improvement when there's the 
right feedback and improvement, and pockets of schools are 
doing that. Most are not.
    Third, we see intense cultures of high expectations and 
personal responsibility and efficient use of time for all kids. 
You can't legislate that from the Federal level. That's the 
kind of thing you have to drive through effective leadership, 
the kind of culture that can drive high expectations in 
practice.
    Fourth, we do see adequate funding, including funding for 
the teaching profession, which is so important, but also 
discretionary funding. The little bits of discretionary funding 
turn out to make an enormous difference to help principals or 
superintendents make improvements. So even your discretionary 
competitive programs have outsized importance because schools 
are struggling for that little bit of extra money to make 
improvements.
    Fifth and finally, there's leadership, and leadership at 
the local level that's invested in driving outcomes, which is 
inhibited when there's a culture of compliance and kind of a 
mindset of checking the box from too many regulations. And I 
think it's a big issue that you all are rightly addressing.
    Specifically, what I think is good and what I think can be 
improved in the bill--briefly, one is matching what I think 
those schools need. The insistence and the requirement for 
college- and career-ready standards and assessments is so 
important, not that that's federally prescribed, but having 
something is--most of these schools do not have those 
expectations. If you do, that should be institutionalized, 
because that's fantastic in this bill.
    The second, the competitive grant programs focused on 
talent, on principals and teachers--the Pathways program, the 
Great Principals Act--really trying to train principals and 
teachers and support them in exchange for performance 
accountability for their institutions.
    Third is the prioritization on low achieving schools. It's 
a disgrace that we have schools that are achieving on such low 
levels in this country. And even if you got flexibility now--
that's a priority in this bill.
    And finally, I do think that it's important that you've got 
to fix some of the prescription and regulatory mindset of No 
Child Left Behind in order to remove the culture of compliance 
and try to invest in leadership at the local level. I think 
those are really good.
    Two issues I'll close on--I have two significant concerns 
about the bill that I would pay a lot of attention to if I were 
in your shoes in the Senate and working on improving this bill. 
First of all, there's been a lot of discussion about teacher 
and principal evaluation and effectiveness systems. And I 
realize that there are those who would say that should be 
mandated. There are some who say that it shouldn't be part of 
this bill.
    I would recommend improving on the current bill by putting 
in place a very substantial incentive--not a requirement--a 
very substantial incentive, perhaps taking as much as 50 
percent of the title II program, which has not been effective, 
to support competitive grants to help States and districts 
design and use these systems. And in some ways building on 
Senator Alexander's bill, I think the incentive is there, but 
could be larger.
    I think over the course of 10 years, you could put enough 
funding that every State would be able to get funds, and I 
think there's a way of doing it. Since it turns out that only 
42 percent of title II right now is used for teacher and 
professional development, I think you could actually get more 
funds through this approach to support professional development 
than the current program.
    The last thing I'd say on this--right now, title II isn't 
working very well. I think if you put in place State-driven 
systems on a competitive voluntary basis, you could actually 
get a lot more bang for your buck from the systems.
    And the very last thing I'll say is, I do think there needs 
to be much more press on the performance targets and press for 
improved achievements. I think there are various ways to drive 
that transparency and accountability.
    Thank you.
    The Chairman. Thank you very much, Mr. Schnur. When you 
said the successful schools--you gave five things: high 
expectations, constant improvement of teaching, the culture of 
personal responsibility, adequate funding, and leadership.
    Would I understand that under culture of personal 
responsibility comes the subset of families? In other words, we 
always focus on schools. But we know a lot of what influences a 
kid's ability to learn and desire to learn is what happens 
outside the school. What role does the family play in that list 
of yours in those successful schools?
    Mr. Schnur. As you know, it's huge, and as a dad of a 6-
year-old and a 4-year-old and a 2-year-old, I walk my kid to 
public school every day. I know the roles of a parent--the role 
that parents play. But the schools that we've seen that have 
driven big results do find ways to really engage parents in 
taking responsibility to drive improvement for kids.
    Most parents want the best for their kids, but a lot of 
them don't have the support they need. There are strategies 
that can include the parents in this culture of personal 
responsibility, as you're noting, and, I think, especially, are 
driven by the leaders of the school and the teachers that they 
enlist.
    The Chairman. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    I'd like to thank all of you for coming, and I thank 
Senators Harkin and Enzi and Paul for making this hearing 
happen. I think it's useful.
    Let me take what Mr. Schnur said and go to Mr. Seaton, who 
is from Memphis. Mr. Schnur suggested that the bill would be 
improved if we had a larger incentive for teacher-principal 
evaluation.
    Mr. Seaton, Tennessee is currently going through a teacher-
principal evaluation process. I think almost every teacher is 
involved in it. And that's the result of a program, Race to the 
Top, which had an incentive for States who wanted to do teacher 
and principal evaluation.
    What's going on? What's your experience there in Sherwood 
School in Memphis? How are teachers and principals responding 
to it? And what role do you think the Federal Government ought 
to have in requiring it, defining it, and regulating it?

 STATEMENT OF CHARLES SEATON, TEACHER, SHERWOOD MIDDLE SCHOOL, 
               MEMPHIS CITY SCHOOLS, MEMPHIS, TN

    Mr. Seaton. Good morning. Thank you to the chairman and all 
of you for having me here.
    We in Tennessee are actually, I believe, setting the 
standard nationally, and, hopefully, people will start paying 
attention to what we're doing with regards to evaluation. We 
know that if you want something, you have to inspect it or you 
have to evaluate it. And so we took the lead with accepting the 
Race to the Top money and decided that we were going to look at 
putting a good teacher, an effective teacher, in front of every 
young person that we have in the State of Tennessee.
    Memphis went a step further, and we started looking at a 
number of evaluation models, nationally, that were being used. 
And Memphis City Schools developed or redeveloped--retooled a 
model, and we're using it now. Every teacher, every principal, 
whether they're teaching a student--so that means 
administrative personnel also--are being evaluated, and they're 
looking at a number of issues.
    They put a rubric together that looks at the actual art of 
teaching and measures those skills that we believe are 
effective skills to teach, and it also looks at culture or the 
teaching domain, where you are. And I think that we have seen 
that it's caused us, as teachers, myself included, to re-
evaluate exactly how I'm doing and try to put those high-yield 
strategies in front of myself.
    Senator Alexander. You're a special education teacher. Is 
that right?
    Mr. Seaton. That is correct. I teach special education. And 
it's caused us--and No Child Left Behind has done a good job in 
focusing attention on those areas of special needs children. 
But I think we see in Tennessee that we've created now a 
culture that is data-driven as well as personnel driven. So 
we're able to look forward.
    Senator Alexander. Thank you.
    The Chairman. Before I call on the next Senator--I think it 
was Senator Bennet--let's go to Mr. Grier who wanted to have an 
intervention on this point.

 STATEMENT OF TERRY GRIER, SUPERINTENDENT, HOUSTON INDEPENDENT 
                  SCHOOL DISTRICT, HOUSTON, TX

    Mr. Grier. Yes. Thank you, Senator. Thank you so much. It's 
good to see you.
    In Houston, we believe that teacher and principal 
evaluation is just too important to leave to chance. It has to 
be fixed in this country. As a school superintendent, I've been 
leading district after district, and when you get there and you 
see that student performance is not very high, but evaluation 
ratings on almost everyone is off the scale, it just has to be 
fixed.
    We have to have a teacher and principal evaluation system 
in this country and in our school systems that give our 
employees a real honest picture of what they're doing. Last 
year, in Houston, we implemented two new evaluation systems. 
Our teacher evaluation system will contain a weight of about 50 
percent, a little less, of student academic performance, as 
well as will our principal evaluation as we finish it up this 
year.
    This past year, as a result of our efforts, we retained 92 
percent of our highest performing teachers in Houston. And, 
frankly, we replaced 55 percent of our lowest performing 
teachers in the district.
    The Chairman. One thing that Senator Alexander has gotten 
into my head about is how tough it is to do evaluations, and 
that we don't really have the metrics, if that's the proper 
word that I could use, of what is a good teacher evaluation 
system. Or are there a lot of different things out there? You 
said that 50 percent in Houston was based on student 
performance, and you seem to think that whatever you're doing 
in Houston is working.
    Is there a template there for the rest of the country? I've 
been reading articles about Tennessee, and they're trying to 
adopt some kind of evaluation. But it's very difficult.
    Mr. Grier. It's difficult work, but as we proved in 
Houston, it's not impossible work. When you can retain 92 
percent of your best teachers, and you can replace 55 percent 
of your lowest performing teachers in a year, that's proof that 
it's--in the seventh largest district in the country, it's not 
impossible. We had over 2,500 teachers involved with us in 
developing our teacher evaluation system. This is something we 
did with our teachers, not to our teachers.
    The Chairman. So they were involved in developing the 
system.
    Mr. Grier. They must be. They just absolutely--it's 
critical that they must be.
    The Chairman. If you have that on paper--maybe my staff has 
it. I don't know. I'd like to see what you use for the other 
metrics.
    If you use 50 percent on student performance, what's the 
other 50 percent?
    Mr. Grier. A lot of it's pedagogy, how teachers teach, 
classroom management----
    The Chairman. Did you do classroom observations?
    Mr. Grier. Classroom observations, a minimum of----
    The Chairman. Do you ask students--are students involved?
    Mr. Grier. Students are not involved in our particular 
component.
    The Chairman. Do you think that's important? Because I've 
often thought that one of the best people to evaluate a 
teacher--students know who's a good teacher.
    Mr. Grier. It's fascinating. We know several things about 
teacher evaluation. Teachers know who the good teachers are. 
Students know who the good teachers are, as do parents, 
particularly parents who understand how the system works and 
that are reasonably well-educated.
    Where we struggle sometimes is in training principals to 
evaluate teachers and to have the skill sets. We required all 
of our principals in Houston to go through 35 to 40 hours of 
teacher evaluation documentation, appraisal training. It's very 
important.
    The Chairman. Mr. Luna had his up next. Mr. Luna.

     STATEMENT OF TOM LUNA, IDAHO SUPERINTENDENT OF PUBLIC 
                     INSTRUCTION, BOISE, ID

    Mr. Luna. Thank you, Mr. Chairman. In response to Senator 
Alexander's question about evaluations and incentives--and at 
some point, I would hope to be able to have a discussion also 
about Idaho's State chief 's views about the law itself, the 
good parts and the other parts.
    But when it comes to evaluations and incentives, we know 
that the most important factor--once a child enters a school, 
by far the most important factor is the quality of the teacher 
in the classroom. It's by far more important than the amount of 
money spent, the curriculum, the technology. All those are 
important, but by far the most important factor is the teacher 
in the classroom.
    And so in my State, we went through the process of 
developing a teacher performance evaluation that is built upon 
the Charlotte Danielson framework. And I think many would tell 
you that Charlotte Danielson is definitely an expert in the 
observations and evaluations of how teachers perform in the 
classroom.
    And then 50 percent of the evaluation now in Idaho has to 
be based on student achievement, primarily focusing on growth. 
Parental input has to be part of the teacher's performance 
evaluation. We've also implemented a statewide pay for 
performance plan, or merit pay, as some people would refer to 
it, where teachers in Idaho can now earn up to $8,000 a year in 
bonuses based on taking on leadership roles or if they teach in 
a hard to fill position, but also if they teach in a school 
that shows high academic growth.
    The point I would like to make, and to answer your 
question, Senator Alexander--you asked about evaluations and 
incentives. Should the Federal Government require it? Should it 
define it? Should it regulate it?
    We did all of this without any incentive or mandate from 
the Federal Government. And if you want to find a balance, I 
don't see, necessarily, a problem with the Federal Government 
requiring it. But I think it goes too far if the Federal 
Government tries to define it or regulate it. I think Idaho and 
other States could demonstrate that we're ahead of the curve 
when it comes to robust evaluations and incentives so that we 
don't leave it to chance as to whether every child has a highly 
effective teacher every year they're in school.
    [The prepared statement of Mr. Luna follows:]

                     Prepared Statement of Tom Luna

    Chairman Harkin, Ranking Member Enzi, members of the committee, 
thank you for the opportunity to discuss the urgent need for ESEA 
reauthorization with you today. My name is Tom Luna, I am the 
superintendent of Public Instruction for Idaho and the president-elect 
of the Council of Chief State School Officers.
    Let me be clear at the outset that in the interest of long-term 
reform and efforts to increase student achievement throughout the 
States, the Council believes that a reauthorized ESEA is the best path 
forward. We support your efforts in moving this process along and hope 
that Congress can move swiftly and send a bill to the President for his 
signature this Congress. We support the Administration's ESEA 
Flexibility plan, but all students deserve to benefit from a timely and 
comprehensive update to the ESEA.
    I applaud the bipartisan effort in the Senate to bring forth a 
comprehensive reauthorization bill that maintains a meaningful 
commitment to accountability while promoting greater State and local 
leadership in K-12 education. As Idaho's State Superintendent, I have 
strongly encouraged reauthorization to transform this law away from a 
prescriptive one-size-fits-all Federal model, to an approach that 
promotes State and local decisionmaking, while maintaining an 
unwavering commitment to accountability for all students, especially 
the disadvantaged. Idaho has already moved in this direction by passing 
comprehensive education reform known as Students Come First that raises 
academic standards, creates the next generation of assessments, 
implements a growth model for increased accountability, ties educator 
evaluations to student achievement, and rewards excellence in the 
classroom. The Senate HELP Committee now has found the right balance to 
reauthorize the Federal law and give States the higher levels of 
accountability and flexibility they need to raise student achievement.
    The bill passed out of this committee last month sets high 
expectations for all States and empowers them to lead on behalf of 
their students. Specifically, the bill requires all States to adopt and 
implement college and career-ready standards and improved assessments 
aligned to the higher standards. These next generation assessments must 
measure student knowledge and their ability to apply knowledge through 
higher order skills. Removing the one-size-fits all accountability 
approach found in current law, the bill requires States to establish 
rigorous new accountability systems, make annual determinations for all 
schools and districts based on clear goals and continuous improvement, 
and provide an array of rewards, supports, and interventions for all 
schools, with a focus on the lowest performing schools and those with 
the largest achievement gaps.
    States are already moving reform in these critical areas and have a 
proven track record of doing the right thing on behalf of their 
students. For example, 45 States have adopted college and career-ready 
standards in English Language Arts and Mathematics through the Common 
Core and 45 States have agreed to develop next generation 
accountability systems aligned to core principles designed to ensure 
meaningful results for all students. With nearly every State also 
collaborating with one of two consortia designing next generation 
assessments, the conclusion is simple--States are not running from 
accountability, they are stepping up and embracing higher levels of it 
on their own accord. Your legislation will help more States continue 
this work by incentivizing State leadership, clearing away hurdles 
presented by current Federal law and creating the necessary flexibility 
for States, districts and schools to tailor solutions aimed at 
addressing persistent underperformance. Regardless of Federal action, 
Idaho intends to implement college and career-ready standards and 
establish a new accountability system consistent with the principles 
outlined in the Council of Chief State School Officers accountability 
framework. Passage of the HELP committee bill, however, will enable the 
State to forgo costly and burdensome implementation and administration 
of distinct Federal and State systems. Idaho's new statewide 
accountability system will include performance targets designed to 
ensure that all students are on a path to college and career readiness.
    Idaho's system will include a single, streamlined statewide 
accountability system that will include growth measures, growth toward 
college and career readiness and will account for measures that include 
pushing even the highest-achieving student, such as dual credit and AP 
course enrollment. Idaho has already taken steps toward building this 
accountability system through by passing comprehensive education reform 
laws, known as Students Come First. Through these laws, the State is 
raising academic standards, creating the next generation of 
assessments, implementing a growth model for increased accountability, 
tying educator evaluations to student achievement, and rewarding high-
growth and high-achieving schools. In addition, the State is focusing 
on increasing the number of students taking dual credit courses in high 
school, and all high school juniors will take a college entrance or 
placement exam before graduation. These reforms lay the groundwork for 
Idaho's waiver application for ESEA Flexibility and are aligned with 
the proposed legislation to reauthorize ESEA.
    The HELP Committee's bill has seen several positive improvements as 
a result of the committee's input and we hope the bill will continue to 
see further improvements when it is discussed on the Senate floor. In 
that spirit, I would like to offer two suggestions. The bill limits 
States to a single framework for identifying the 5 percent lowest 
achieving schools based on assessments in English and Math as well as 
graduation rates for high schools; but allows for the use of other 
valid outcome measures for all other schools. This distinction 
effectively creates two accountability systems and unnecessarily 
prevents States from using multiple outcome measures to get a more 
accurate account of how students are performing. Additionally, while we 
support and appreciate efforts to incentivize the development of 
meaningful teacher and leader evaluation systems through competitive 
funding grants, CCSSO did not oppose the overall requirement for States 
to require districts to implement such systems in order to receive 
title II funds. Again, this is an area where States are already 
leading, Thirty-five States are working together to develop evaluation 
systems that support educators as well as use performance to make 
determinations about performance levels for educators. Requiring States 
to develop evaluation systems based in significant part on student 
achievement and including multiple measures, without prescribing the 
design or uses of such systems will further strengthen this 
legislation.
    In closing, let me say that as long as the Federal Government 
contributes to funding public education, it should play a role in 
ensuring accountability both for ensuring positive results for all 
students and encouraging the best and highest use of taxpayer dollars 
toward achieving those results. In short, States also must be empowered 
to define and lead education reform efforts and the Federal role should 
be limited and focused on setting a high performance bar and on 
supporting comprehensive State and local reform efforts. One needs to 
only look at what is going on in Idaho, Indiana, Ohio, Florida and 
other States across the country to see evidence of States' commitment 
to accountability and comprehensive reform. It is evident that 
education chiefs across the country have embraced the challenge of 
turning around low-performing schools and closing achievement gaps. We 
know States will deliver higher standards, aligned assessments, robust 
accountability systems, aggressive turnaround interventions and 
meaningful educator evaluation systems, because the work is already 
well underway. Maximizing the impact of these important reforms, 
however, will require Congress to update the ESEA to empower States to 
go even further. Given this context, we respectfully urge every member 
of the committee to support passage of this legislation on the Senate 
floor and to work collaboratively with the House to send a balanced 
reauthorization bill to the President for his signature.
    Thank you for the opportunity to testify today.

    The Chairman. Thank you, Mr. Luna.
    I will go in this order--Senator Bennet, Ms. Danks, Ms. 
Geisselhardt, and then Senator Paul.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. I'd like to thank 
everybody for being here today, especially Mr. Seaton and Ms. 
Danks.
    Thank you for teaching. I deeply appreciate it.
    Senator Alexander, I spent some time on the phone this 
morning with your very excellent Commissioner of Education in 
Tennessee, hearing from him about the evaluation system there, 
and he sends his regards to you.
    Senator Alexander. What did he say?
    Senator Bennet. I'll tell you later.
    [Laughter.]
    He said they have the best system in the world. And since I 
support both of Mr. Schnur's amendments to the bill, I wonder 
if you could talk a little bit about, from your perspective--
because no one around this table, I don't think, has spent more 
time in as many schools as you probably have--what is the 
importance of the performance targets? And what should that 
look like in this bill, ideally, if we're able to find a path 
that would allow us to include it?
    Mr. Schnur. Well, you people in this room have a lot more 
expertise on the legislative issues. From a school perspective, 
from a principal, teacher, kids sitting in schools, I think it 
is of vital importance--and I think they don't necessarily care 
where this comes from. But kids across the country need a press 
that's supported from outside the school for higher 
performance.
    There are too many things conspiring to kind of bring 
lower--I'm not saying the Federal Government should at all 
micromanage this. But I'm saying from the school perspective, 
all these things conspire to have, in many ways, lower 
expectations.
    The best principals need and benefit from the public, in 
some way, saying, ``You can do better in specific ways. You've 
got to hit bigger goals. We're going to have transparency 
against progress, against bigger goals.'' And the best 
leaders--they want to do it, but there are a lot of people who 
will be naysayers. And so having that support, I think, is 
important.
    Specifically--and my view is not shared around this--I'm 
sure in this room, universally, but I do think that requiring 
having performance targets is really important. I think there 
should be a lot of flexibility for States that have those 
defined as long as they're making big progress in getting kids 
to succeed. But I think it's a great blend of empowering States 
to do--and how? By requiring there be the targets to do it, I 
think, would be really helpful. And the transparency against 
that is as important as anything else.
    One thing I would just briefly mention--and some of the 
Senators here know--we're launching a new organization, America 
Achieves. And one of the things we're going to do is convene a 
panel of people, including former Secretary Riley and former 
U.S. Secretary of the Army Pete Geren and people like Eduardo 
Padron, who runs the Miami Dade Community College, and Deb Gist 
in Rhode Island and others--teachers, great teachers, and 
frontline principals--to put recommendations together for what 
goals and targets should be.
    Early learning, K-12 through post secondary--a private 
panel--and I think that can help inform the debate, and getting 
good thinking out there is important. But I think somewhere at 
the government level there needs to be a drive to ensure there 
are targets and transparency against those, in my view.
    The Chairman. Thank you very much.
    Now I've got Ms. Danks, Ms. Geisselhardt, Senator Paul, Mr. 
Seaton, and Senator Isakson. We can probably sit here for the 
next 2 hours and discuss performance targets and evaluations. 
There are other aspects of the bill we'd like to get to. So 
could we perhaps--and maybe you're going to bring up some other 
things. I don't know. But, hopefully, we can sort of----
    Senator Enzi. Perhaps we could have each of them quickly 
mention what they think is good in the bill and what they think 
needs improvement in the bill, and then go back to this kind of 
a format so that nobody gets left out on making their comments.
    The Chairman. OK. Let's go to Ms. Danks, first.
    Ms. Danks.

 STATEMENT OF AMANDA DANKS, LEAD TEACHER, WM. S. BAER SCHOOL, 
          BALTIMORE CITY PUBLIC SCHOOLS, BALTIMORE, MD

    Ms. Danks. Good morning.
    The Chairman. Do you want to address the performance and 
evaluation----
    Ms. Danks. I just wanted to respond to your question about 
how the rubric was created. In Baltimore City, we recently 
passed a contract where the teachers are paid for performance, 
and we also went through that process of creating a rubric. It 
took about a year, and we had all our stakeholders, 
administrators, teachers, some family members, working together 
through many drafts to create a rubric that truly defined what 
highly effective teaching looked like in the classroom.
     I think Senator Alexander's question about whether or not 
the Federal Government should have a hand in that--I think the 
autonomy that our district had in creating that rubric for our 
specific needs was fantastic. I don't think that our rubric 
would translate to a lot of school systems just because we are 
an urban area with a different set of populations.
    I do teach at a school for students who are severely 
disabled and medically fragile. And within our own school, 
we're actually looking at creating our own rubric just 
because--the rubric that the district created was fantastic 
because it was so specific. It has footnotes and explained 
every detail. But for a lot of our students, those details are 
not going to apply.
    And, again, I think having that autonomy for us to go 
through that process on our own and define what highly 
effective looks like for our student population is a great way 
to ensure that we have highly effective teachers in the 
classrooms.
    The Chairman. Very good.
    Ms. Geisselhardt.

STATEMENT OF PAM GEISSELHARDT, GIFTED AND TALENTED COORDINATOR, 
               ADAIR COUNTY SCHOOLS, COLUMBIA, KY

    Ms. Geisselhardt. I was wanting to speak to the teacher 
evaluation and incentive. I just wanted to say that there 
already is incentive, as far as a national board certification. 
In most States, there's incentive pay for that, and that is 
marvelous professional development for teachers.
    And as far as the evaluation, I think evaluation definitely 
needs to be done on the local and State level because it is so 
different in for instance, Memphis and rural Kentucky. And I 
think that's one of the great things about your bill--is that 
it does put more emphasis on local and State decisionmaking in 
all areas.
    But as far as teacher quality, teachers are--well, I 
shouldn't use that term, because that's different in this bill. 
But as far as evaluation, teachers want to be evaluated, 
because teachers want to improve, and that should be the 
purpose of evaluation--is to improve teaching rather than to 
find fault with teachers and things like that. That is the 
purpose.
    If we can have this, where our rubric and things like that 
give us the needs that we have as teachers to help us improve, 
that's what we're looking for. But we do very much want to 
avoid incentives and things like that that cause competition 
between teachers.
    And that's a real concern for us as far as teacher 
evaluation and incentives, because in order for schools to be 
successful and in order for our students to learn, all teachers 
and all school personnel must work together for the education 
of the whole child, and we don't want to start--I think I'm 
speaking for all teachers in that regard. We don't want to 
start anything that causes a competition between teachers, 
because we do want to be able to collaborate and work together 
and be the best that we can be.
    The Chairman. Thank you very much.
    I think Senator Enzi made a great suggestion. I'd like to 
start with Mr. Hess and go down--not right now--as soon as we 
finish with Senator Paul and Mr. Seaton and Senator Isakson.
    Senator Paul. If you want to, go ahead, and I'll ask my 
question after you go down.
    The Chairman. OK. You want to do that?
    Senator Paul. Sure.
    The Chairman. OK. I think Senator Enzi made a good 
suggestion. Let's just start with Mr. Hess.
    Mr. Schnur, you already had your shot. We'll skip you.
    So Mr. Hess--and we'll just go down. What are the two or 
three things you like about the bill or the two or three things 
you don't like about the bill, if that's a fair enough 
question.

 STATEMENT OF FREDRICK HESS, RESIDENT SCHOLAR AND DIRECTOR OF 
EDUCATION POLICY, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, DC

    Mr. Hess. Sure. I appreciate the opportunity to be here, 
Mr. Chairman, Senator Enzi, members. For me, actually, unlike 
Mr. Schnur, I don't have the opportunity to spend as much time 
kind of on the ground. I spend much more of my time trying to 
look at these questions with some perspective.
    I think if we look back at a half century of Federal 
efforts to improve schooling, some pretty stark lessons stand 
out that are rarely taken into account. We often spend time 
talking about whether the Federal Government should or should 
not be involved in education. If we go back to the Northwest 
Ordinance, Morrill Land Grant Act, National Defense Education 
Act, for more than two centuries, we've actually had the 
Federal Government involved in some way.
    For me, the much more useful question here is: What is the 
Federal Government equipped to do well when it comes to 
American education? I think the Federal Government is horribly 
situated to improve schools or improve teaching. It is just 
atrociously situated, because schools are enormously complex 
organizations. What we've already heard today from several of 
the folks on the ground--from Mr. Luna, from Mr. Grier--is how 
much improving teacher accountability, improving teacher 
evaluation, depends not on whether you do it, but on how you do 
it.
    And the problem is, given this design of the American 
Federal system and the complexity of State education agencies 
and local education agencies and schools--is no matter how 
well-intended our efforts around trying to spell out 
improvement models, trying to stipulate preparation for 
principals who are going to take over turnaround schools, 
efforts to specify evaluation models, long experience teaches 
me that we are going to wind up with much more in the way of 
regulation and case law and compliance than we are with 
fulfillment of the intent of the law.
    I would encourage us to be as cautious as possible about 
trying to spell out interventions or remedies for either 
schools or teachers. That said, I think there are some 
particularly useful elements of the law. I think a coherent 
vision of the Federal role recognizes that there are public 
goods the Federal Government, to my mind, is uniquely equipped 
with to provide an education.
    One is robust and reliable transparency, both around 
student performance, around outlays and expenditures, and 
around disaggregating us to ensure that we have an x ray on how 
well kids everywhere of all kinds are doing.
    Second, the Federal Government, I think, has an explicit 
charge to provide constitutional protections for vulnerable 
populations. We do this in IDEA. I think title I is an effort 
to do this. To my mind, the 5 percent target that's spelled out 
in the committee bill is reasonable.
    Jack Welch, when he ran General Electric, used to have a 
mindset that they were going to try to fire the worst 10 
percent of employees each year, not that he knew 10 percent was 
the right number. It could have been 15. I could have been 5. 
He just thought 10 percent was a reasonable target. And it 
strikes me that encouraging States to address those worst 5 
percent each year is not unreasonable, so long, again, as we 
keep that focus on encouraging States to address it and not on 
trying to stipulate models through which they should address 
it.
    Third, I think there is an enormously useful role in the 
kind of stuff Mr. Schnur alluded to to provide political cover 
for State, local, and union leaders who are trying to get 
themselves out of anachronistic systems. Often, even when you 
have superintendents like Mr. Grier or far-sighted union 
leaders who would like to do things differently, they get 
pulled back by their constituents who ask, ``What's in it for 
us?''
    One of the powerful levers of voluntary competitive grants 
is the answer to ``What's in it for us?'', where we can go out, 
we can bring a spotlight, we can bring home dollars, and it 
provides us a chance to leapfrog into the 21st Century.
    And fourth, I think there is a crucial Federal role when it 
comes to basic research. I think Senator Bennet's forthcoming 
amendment on ARPA-ED is enormously useful on this front. What I 
would encourage, though, is we keep in mind that the Federal 
role, if we think about DARPA, for instance, is to really 
figure out how do we leverage basic technological innovations 
and not get the Federal Government involved in trying to 
recommend particular models of implementation.
    I hope that's helpful.
    The Chairman. Very good, Mr. Hess, very, very 
comprehensive.
    Ms. Geisselhardt.
    Ms. Geisselhardt. In regard to what's positive about it, I 
think, first of all, that--the statement Senator Enzi made was 
that No Child Left Behind was ineffective, and I certainly have 
to agree with that. And I would like to think of this really as 
not the reauthorization of No Child Left Behind but the 
reauthorization of ESEA.
    As an educator, just the connotation of the term, No Child 
Left Behind, really is demoralizing to us at this point, 
because there is so much focus on testing, testing, testing 
that we have no time to teach. And it really has become that 
way within the schools. Working with gifted education, I run 
into this all the time, because things that I want to do with 
my students--the teachers don't want me to take them out of the 
classroom because they're addressing a particular standard 
that's going to be tested.
    For instance, I was taking a group to view an open heart 
surgery, a live open heart surgery, and one of my teachers was 
giving a practice test to practice for the practice test to 
practice for the test. I mean, that's the way that it goes. 
These students are testing all year round, and it takes so much 
time from instruction.
    And as long as we keep our standards and our gap groups set 
up as they are--I think the gap groups are effective. We want 
to look at those gaps. We want to be sure that no child is left 
behind, and that needs to be our concentration. And I was so 
thrilled when No Child Left Behind passed because I thought, 
``Hallelujah. Now we're going to see that every child learns 
every day.''
    But what we're doing in No Child Left Behind is we're 
leaving behind most of our students, because our students that 
have special needs are not being able to be taught the skills 
that they need to be taught. Our FMD classes, where teachers 
really, really, really, genuinely cared about these students, 
wanted these students to learn skills that they could use in 
their lives, life skills. They can no longer teach those skills 
because they have to address the standards. These students are 
going to be tested on the standards.
    Gifted students are left behind totally, because they are 
already proficient or distinguished, and so teachers don't feel 
that they can use their time to work with these gifted 
students. Consequently, test scores of our gifted students are 
getting lower and lower. And many of these are the future 
leaders of our country, and we're not meeting their needs. So 
those students come to school and go home and have not learned 
throughout the day.
    But the real concern of mine--and I do work with gifted 
students, is what I hear from the special ed teachers and their 
concerns that they have that they can no longer--they deeply 
care about these students or they wouldn't be in these jobs. 
They couldn't be in these jobs. But they cannot address the 
needs that these students really need in their classrooms.
    We have even had an instance where we had a terminally ill 
special needs child and tried to get an exemption for testing 
and could not get that. Even with a doctor's note saying that 
the testing--just the process of testing would be detrimental 
to the child's health, we still could not get an exemption for 
that child, and their scores were figured in our 
accountability.
    We have a student that has a four-word vocabulary. That's 
all he speaks. And one of the phrases that he uses or the terms 
that he uses--he can say, ``yes,'' ``no,'' ``mom,'' and ``hell, 
no.'' That's all he says, and that's all--he's in sixth grade 
now. That's all he has said throughout his schooling.
    He's supposed to do a portfolio. Yes, it's an alternate 
portfolio. You know, that's what people say--``Well, we have 
alternate portfolios.'' But how do you do an alternate 
portfolio with that?
    The Chairman. Thank you very much.
    Mr. Luna.
    Mr. Luna. Mr. Chairman, just one point of clarification. I 
think a concern was raised earlier about the fact that 
incentives could create competition in schools and that that 
could be a negative impact. Just so you understand, in Idaho, 
when it comes to student achievement, we only go down to the 
school level. And so it actually fosters collaboration and 
teamwork amongst all the teachers in the school because they're 
working together to help all their students hit an academic 
goal. And if they meet that goal, then all of the teachers 
receive the financial incentive, not just a few teachers in the 
school.
    When it comes to No Child Left Behind, No Child Left Behind 
reminds me of the old Clint Eastwood movie, ``The Good, The 
Bad, and The Ugly,'' because there's a little bit of all of 
that in the law. I think the good part is it brought us--you 
know, this was 10 years ago. It brought us to a standards-based 
education system where now we were accountable for every child 
and we had to have a standardized way of measuring student 
achievement.
    The bad part of the law was it was a one-size-fits-all. And 
in a State like Idaho, which is a rural State and then has 
rural communities within that rural State, it was difficult to 
implement the law.
    The ugly part is we had a system where the Federal 
Government set the goal, and then they prescribed to the States 
what programs and processes we had to use to meet that goal. 
And if their programs and processes didn't work, we were held 
accountable. That was the ugly part.
    I think that this law, this reauthorization, has kept the 
good parts of No Child Left Behind. In fact, I think it's even 
improved upon--going to a growth model, because if we're 
serious about making sure that every child's needs are met, 
then a growth model demands that a system not only focus on 
those students that aren't at grade level but also those 
students that are above, because you're obligated to show 
academic growth for those students also. Today, once they hit 
proficiency, you're tempted to not focus as much on students 
that are proficient or higher and still focus on kids that are 
below proficiency.
    The other thing about the law is it recognizes the 
leadership that States have stepped forward and taken in 
improving education. States chose to work together to develop a 
higher standard to hold all of our students to called, The 
Common Core. It wasn't because it was federally mandated. We 
chose to work together to create the next generation of 
assessments, not because it was mandated but because we know 
that's what's best for our students. And we chose to develop 
the next generation of accountability.
    You have 40 or more States that without any Federal mandate 
or incentive have developed a higher standard for our students. 
We're developing higher assessments to measure our students, 
and we've come up with our own accountability plan that has had 
quite a bit of influence on the law that's been drafted.
    I think it's a 10th Amendment issue, right, and I think 
it's recognizing the rights that States have and the 
responsibilities that States have. And I'm comfortable with 
that now more than even 10 years ago, because States now have 
demonstrated that they are more than willing and ready to step 
up and hold ourselves and our schools to a higher level of 
accountability.
    The Chairman. Very good. Thank you, Mr. Luna.
    Ms. Neas.

  STATEMENT OF KATHERINE BEH NEAS, SENIOR VICE PRESIDENT FOR 
      GOVERNMENTAL RELATIONS, EASTER SEALS, WASHINGTON, DC

    Ms. Neas. Thank you, Senator Harkin, Senator Enzi. I wanted 
to just say a couple of things from the perspective of Easter 
Seals. And I think our perspective is that students with 
disabilities, in general, have greatly benefited from the 
Elementary and Secondary Education Act, because the law 
requires their academic achievement to be measured and 
reported.
    As a result, more students with disabilities have been 
afforded the opportunity to learn and master grade level 
academic content. That has been huge for our kids--the whole 
notion of they get a chance to try. There are a number of 
things that we like in the Senate bill--the notion of States to 
adopt college- and career-ready standards and an assumption of 
high expectations.
    We also are very pleased that the bill does not codify the 
so-called 2 percent rule, which for us has allowed people to 
apply very, very low expectations to achievement for students 
with disabilities. We're very pleased with the elements that 
promote universal design for learning throughout the bill; 
access to multi-tiered systems of support, including positive 
behavior interventions; and the notion that early learning can 
begin at birth; and that this bill promotes those things.
    There are a number of things that we're very concerned 
about and look forward to working with you to improve them. The 
bill doesn't change this notion of ``N'' size or subgroup size. 
And as a result, right now, less than about 30 percent of 
schools have enough students with disabilities to meet the 
subgroup category. So 70 percent of schools don't even 
measure--don't have enough kids according to their subgroup 
size.
    We know that lots of kids--their progress isn't being 
measured and reported. This law requires 95 percent of kids to 
be assessed. We understand that not every kid is going to be at 
school every day. But we know that we need that data on 
subgroup accountability.
    We really want at the end of the day for all kids to have 
access to the general education curriculum and for all kids to 
be held to high expectations. I spent the last 4 days with 350 
Easter Seals people around the country and have had story after 
story after story of families who are told what their kid 
couldn't do. And they came to us, and we were able to help them 
figure out what they wanted to do.What I would plea to this 
committee--don't put in barriers that make it hard for kids to 
have access to the general curriculum. Before No Child Left 
Behind, before the Elementary and Secondary Education Act, for 
kids that have very significant cognitive disabilities, we used 
to hear over and over again that what they were taught was 
their colors.
    And I'd get a family that would say, ``We got another--this 
IEP--we've got goals in them that my kid's going to learn their 
colors, yellow, red, green. Next year, the goals for my kid's 
IEP are colors. My kids know their colors. We need to move 
on.'' And No Child Left Behind, the Elementary and Secondary 
Education Act, has given us a form that says every kid deserves 
the opportunity to make academic progress.
    My plea to you is let's continue on that to make sure that 
there aren't barriers put in place that disallow kids to have 
access to the general curriculum, access to the supports that 
they need to learn. And one of the things we need are teachers 
who know what they're doing, who are committed to these kids, 
who will help them learn, and the tools to help them do that.
    The Chairman. Thank you very much.
    Mr. Seaton.
    Mr. Seaton. Thank you again. One of the things--yes, we do 
need Federal involvement. We need your money. And in order to 
say that we need your money, you need to be able to have some 
involvement in the guidance of where and how that money is 
spent.
    I do believe in Tennessee that we are moving forward and a 
culture has been created by No Child Left Behind that looks at 
the numbers, that looks at data. And we are willing to change 
and update our strategies on a regular basis.
    There are three things that I want to talk about. 
Evaluation--real quickly, it has to happen. In the military, 
they used to say, ``Inspect what you expect.'' Evaluations will 
cause us to look at how we're going to accomplish the things 
that we need to accomplish.
    Leaders--we need leaders, and a lot of times, people think 
that becoming an administrator in a school system--you teach 
10, 15 years, 3 or 5 years, and you can just become a leader. 
Leaders don't happen like that all the time.
    There needs to be something--this guy Collins wrote Built 
to Last and Good to Great. Those are big-time business books. 
But they look at how to be effective over the course of time 
and how major companies have lasted, and then what they did to 
last. We need to be able to take those same types of data 
points and benchmark what it takes to be a good leader in a 
school. And we need to look at the top 5 percent of schools as 
well as the bottom 5 percent, because those bottom 5 percent of 
schools are our dropout factories. And we need to address that 
with accountability.
    I think that No Child Left Behind pointed us in the right 
direction. But it didn't give us the resources that we 
necessarily needed to make those changes. So as I look at what 
you are talking about--we have a program in Memphis called 
Cradle to Career, and it looks at education from birth to your 
career.
    The college readiness program that you all have 
incorporated, I applaud, and I think that we, as educators and 
as a family of Americans, need to get together, and we just 
need to kind of accept the direction that you all have given 
us. And I thank you for this time.
    The Chairman. Thank you, Mr. Seaton.
    Again, what's good and what's bad about the bill?
    Mr. Grier.
    Mr. Grier. Thank you, Senator. First, we want to say thank 
you for continuing to have an accountability component in 
there. Focusing on the bottom 5 percent of our schools that are 
persistently low achieving schools that have an achievement gap 
and allowing States some discretion in developing an 
accountability system in their State, I think, is all positive. 
We also would like very much that we no longer have to set 
aside money for supplemental educational services.
    In our district, this after-school tutoring program has not 
yielded any results. We actually have had vendors that would 
give students rides to movie theaters in stretch limousines for 
signing up with them. Last year in our district we created our 
own tutorial program in our turnaround schools. We 
reconstituted five middle schools and four high schools. And we 
tutored all sixth and ninth graders in those schools in math 
every day, one tutor per two children.
    At the end of the year, we had twice the academic gains 
that the Harlem Children's Zone achieved last year. We know 
that good tutoring with a good curriculum that is organized and 
that can occur during the school day can pay huge dividends.
    Based on our own experience with turnaround models, we 
would like to really encourage you to modify the one where the 
current legislation limits the schools that reclassify as 
persistently low achieving to only use the closure and restart 
models. We believe that repeat classification should only 
prevent the LEA from using the same model they used during that 
initial classification.
    We also would like to caution the committee on the 
additional reporting requirements that we fear may be attached 
to our parental involvement and in the successful safe and 
healthy students initiatives. We worry that, potentially, a 
large portion of funding allocations to these reforms will go 
simply into reporting mandates. We don't need that type of 
additional bureaucracy. We just don't.
    Finally, one of the things that concerns us in Houston--and 
it concerns a lot of my colleagues in a lot of the large school 
districts--is this issue around comparability. And there are 
some real problems with that in the current legislation. We 
would love to work with you later to perhaps work through some 
of this. But the way that you would come in and determine the 
formula around comparability is very problematic.
    The Chairman. Which is in the bill?
    Mr. Grier. Which is in the current bill--needs major 
attention.
    The Chairman. Which is in the current bill that we have, 
not the current law.
    Mr. Grier. Current bill we have.
    The Chairman. Got it.
    Mr. Grier. Yes, sir.
    The Chairman. I just wanted to be clear what you said.
    Mr. Grier. It's just a huge issue, particularly in a 
district, for example, like Houston, where in turning around 
our lowest performing secondary schools--and these were schools 
that were tagged with the label of dropout factories. We went 
out this past year and raised almost $15 million from private 
sources. We lengthened the school day by an hour. We added a 
week to the school year. We hired all these additional tutors. 
Well, that cost more money.
    To do that and bring those outside dollars in--and now, all 
of a sudden, those are there. In the bill's current language, 
if we had to use the comparability formula that you have here, 
these schools would actually be penalized by our efforts to go 
out and raise additional dollars.
    Another thing that bothers me an awful lot as a school 
superintendent is that it just simply costs more money to turn 
these schools around. And I wish your current bill had some 
type of set-aside in the title I revenues that we receive that 
would be required to be spent on those schools.
    And people can say to you, ``Well, you have the flexibility 
to do that.'' Yes, you do. You often don't have the political 
will to do that, and that's very, very tough, because you're 
then taking money away from another school to insert in your 
lowest performing schools.
    I don't have the magic number in terms of what that set-
aside should look like. But we set aside 1 percent for parental 
involvement. Some people argue that's too low, but it is a set-
aside that requires us to spend money to make sure we can 
engage our parents.
    These schools that are so low performing--it takes more 
money. I can promise you one of the things I'm more concerned 
about than anything we've talked about here today--and I don't 
know how your bill addresses this--is the human capital that's 
required to address these 5 percent schools.
    Quality principals, quality teachers in every classroom--
those are easy words to say. But when you get out and you start 
recruiting, our nine turnaround schools--we recruited 
nationally. We offered $20,000 and $30,000 incentives, stretch 
goals, $5,000 signing bonuses to get principals to go into 
these schools.
    We didn't have anyone from our highest performing schools 
lined up to go into those schools--no one. And we recruited 70 
principals to hire 9. We hired those nine principals, and after 
a year, we replaced four of them. It's just hard work. And this 
whole issue around turning around these lowest performing 
schools--the biggest issue that we'll talk about is the issue 
around human capital.
    The Chairman. Thank you very much, Mr. Grier.
    Ms. Danks.
    Ms. Danks. Thank you again. Something I really liked about 
the bill was the idea that each State would be adopting the 
college and career readiness standards. I think having those 
high expectations for all of our students is very important and 
is going to get our students ready for the 21st Century 
workforce or college or whatever they end up doing.
    Something that I think has been missing for far too long 
from many of our standards are life skill standards, standards 
that address those skills that our students with the most 
severe cognitive disabilities need to master in order to be 
successful after their high school term is finished. So we 
focus a lot on the students that are typically developing, on 
what they're going to do after high school.
    But this other population is left behind by not having 
those standards so that teachers know what to teach, so that we 
can effectively measure progress toward those standards, and so 
that we can be sure that those students are ready for whatever 
they may be getting into when they're finished with high 
school.
    Everyone says that we assess too much. I think that we 
assess ineffectively too much. I agree. We have a lot of 
practice tests for the practice tests in order to take the real 
tests. I think that's completely ineffective.
    If we were able to adopt some more effective assessments 
that provided teachers and administrators with the data 
necessary in order to inform our instruction and improve our 
instructional strategies so that we can push our students to 
those higher levels, then we would be able to assess quickly, 
efficiently, and more often. That data would be collected 
immediately.
    I know we've talked about computer-based assessments. Those 
often are able to give us more quick results and provide them 
in such a way that the teacher can use those the next day in 
order to inform their instruction and make better strategy 
decisions.
    Something that was always a struggle with No Child Left 
Behind that I didn't fully understand how it was addressed in 
this bill are the highly qualified standards. I know when I 
came through teaching, I did come through an alternative 
certification program, and the highly qualified standards was a 
lot of paperwork. No one ever came in my classroom to be sure 
that I was highly effective, but my paperwork was in, and 
that's all that mattered.
    I feel like we're missing the target on that. Anyone can 
turn in transcripts, but not everyone can be a highly effective 
teacher in the classroom. We've talked a lot about the 
evaluation of teachers and principals. With that evaluation 
comes support and guidance. And so I think that is a huge piece 
missing in that highly qualified standards discussion.
    Just because a teacher is highly effective 1 year with a 
new student population or at a new school, they may not be 
highly effective. I think that continued support to help our 
teachers grow into better instructors is going to be paramount 
for our students' success.
    The Chairman. Thank you, Ms. Danks.
    Mr. Henderson.

STATEMENT OF WADE HENDERSON, PRESIDENT AND CEO, THE LEADERSHIP 
                   CONFERENCE, WASHINGTON, DC

    Mr. Henderson. Thank you, Chairman Harkin, Senator Enzi, 
and to all the distinguished members of this committee. I want 
to thank you for inviting me to this important bipartisan 
roundtable discussion on the reauthorization of the Elementary 
and Secondary Education Act.
    Mr. Chairman, I have been uncharacteristically quiet this 
morning, and I would hope that gives me perhaps an additional 
minute to lay out both things that we like about this bill as 
well as those that pose a concern. So let me begin.
    Let me say at the outset that I think all of us seem to 
agree that No Child Left Behind is in need of significant 
improvement. I think we would also agree that the global 
economy has imposed new demands on our Nation to improve the 
quality of public education available, both K through 12 but 
also post-secondary education.
    The fact that our workforce is going to be drawn from an 
increasingly diverse population of individuals both native born 
and immigrants in our country makes this not just a moral 
issue--and, that is, improving education reform is a moral 
issue--but it's also a national security issue. And the fact 
that this committee is taking seriously its responsibilities 
for a deeper dive in this area is extremely important.
    There are things about this bill that, indeed, represent 
improvements over current law. I'm going to outline them very 
briefly, and then I want to talk about the other things which 
pose concern.
    We are very pleased that the bill requires more equitable 
funding within districts. I would disagree with Mr. Grier with 
respect to the responsibility of the Federal Government to use 
its leverage and its resources to help encourage improvement in 
this area. I think the bill does have an improved effort to 
address the problems of dropout factories, which are those 
schools that represent a significant part of the schools where 
individuals drop out annually. And for African-Americans and 
Latinos and native Americans, we often lose perhaps as many as 
50 percent of our high school graduating class annually.
    I think the bill does a great job in providing college- and 
career-ready standards. I would agree with Ms. Danks that there 
is improvement there. I'm pleased about the importance of data 
collection to ensure that the subgroups of boys and girls 
aren't matched and that interventions can be targeted more 
effectively. I think that's important.
    We think the STEM courses available to under-represented 
groups is an improvement. All those things represent 
significant improvement, and we were especially pleased with 
Senator Franken's effort to provide additional protections for 
students in foster care. It makes a significant difference. 
Those things are, we think, very important.
    But, unfortunately, from our standpoint, these improvements 
are overshadowed by the bill's, albeit it perhaps unintended, 
but nonetheless historic retreat on the accountability 
question. And because of this retreat, dozens of civil rights, 
education, and business organizations, including the U.S. 
Chamber of Commerce, have determined that we cannot support the 
bill at this time.
    We have issued a statement to that effect, which I would 
request be entered into the record of this discussion this 
morning.\1\
---------------------------------------------------------------------------
    \1\ Editor's Note: The statement referred to may be found at http:/
/dl.dropbox.com/u/2906714/
MoreGroupsWithholdSupportfromESEA_11_8_2011.pdf.
---------------------------------------------------------------------------
    The Chairman. Yes.
    Mr. Henderson. Now, we are troubled by several provisions 
in the bill. Let me see if I can just outline them with the 
same brevity that I did with those things that we like.
    We are concerned that the States would be required to take 
action to improve only a small number of low performing 
schools, that is, the bottom 5 percent of the schools in most 
States, and that while the bill does identify an additional 5 
percent of schools with achievement gaps and those considered 
dropout factories, the bill does not require these schools to 
make any significant academic progress and prescribes no 
interventions. Moreover, it allows each State to decide which 
achievement gaps merit attention and which do not.
    In the remaining 95 percent of the schools that are not 
among the States' very worst performing public schools, large 
numbers of low achieving students will simply slip through the 
cracks. Now, obviously, that happens today. But that is not the 
measure that we use to determine whether a newly reauthorized 
Elementary and Secondary Education Act is responsive to those 
problems. In many States, these students will be low-income 
students, students of color, those learning English, and 
students with disabilities.
    The bill also does not require States to set targets for 
significantly improving high school graduation rates, despite 
the fact, as I noted, that every year, about 1.3 million 
students drop out, and only a little over half of the students 
of color, including African-American, Latino, native American, 
and southeast Asian students, graduate on time.
    And then, finally, for English language learners, the bill 
eliminates annual, measurable objectives, which is a critical 
accountability element for the title III program.
    Finally, the bill weakens requirements in the current law 
requiring that low-income students and students of color be 
taught at a higher rate by inexperienced, unqualified, or out-
of-field teachers. We know that we can't close the achievement 
gap if we don't also close the teacher quality gap.
    Now, I don't have the experience of many of the teachers 
and principals who work on the ground every day. But I am a 
board member, a trustee, of the Educational Testing Service. 
The Educational Testing Service, as a non-profit corporation, 
has launched a series of symposia and seminars focusing on ways 
to close the achievement gap. And in, I think, a highly 
academic and a deeper dive, they've identified a number of 
elements that lead to actually reducing the achievement gap 
between students.
    But all of them are based on the core principle of 
accountability. It is indispensable to advancing the common 
goals that we have about closing the achievement gaps and 
maintaining our country's competitiveness in the global 
economy. I think it's fair to say and without hyperbole that 
the provisions in the bill that we have focused on with 
greatest concern really represent the de facto end of a 
national accountability system as we have come to understand 
it.
    And while I believe that this notion of providing 
flexibility for individual school districts and schools may be 
important given the context in which it is raised, it is not 
appropriate to offer flexibility that, in effect, represents an 
end to the establishment of national standards that have been 
the significant--in fact, arguably, the most significant driver 
of the improvement of public schools that we've seen over the 
past decade of No Child Left Behind.
    With that in mind, sir, thank you, and I appreciate the 
opportunity to----
    The Chairman. I thought that was very thorough. Thank you 
very much.
    And, Mr. Thomas, you've got the hammer.

  STATEMENT OF ELMER THOMAS, PRINCIPAL, MADISON CENTRAL HIGH 
                      SCHOOL, RICHMOND, KY

    Mr. Thomas. Thank you, Senator. I really appreciate the 
opportunity to speak to you today, and I just want to say that 
as a principal, I love my students. I love my job as principal. 
I love working with our students every day and with our 
teachers every day. And in looking at this reauthorization, 
there are two or three things that I'd like to mention that I 
think are very positive and then some things that we can 
certainly work on.
    Certainly, I think--as everyone is--in mind, we're looking 
out for interests of students. And so some good things that I 
think are in the bill--in the recommendation would be the 
student growth model. You've heard that quite a bit, and I 
think that's a real positive thing. To get rid of the punitive 
AYP sanctions was very effective, and so we appreciate that 
effort.
    A lot of my work has been based on the college and career 
readiness standards. I think that's a good start there as well. 
I do think that it's important with the college and career 
readiness standards that we look at what our States are doing 
and allow the States to determine what those standards are. And 
in Kentucky, we've begun that work and are certainly very 
appreciative of that opportunity to set the standards as a 
State.
    There are some things with the reauthorization that 
certainly should be looked at and thought about thoroughly 
before we move forward with anything--once again, locally 
determine what our college and career readiness standard looks 
like; in addition, approving some assessments for our students 
with special needs based on their accommodations set forth in 
their IEPs. I think our local ARC, the release committees, can 
determine what those assessments look like. And in so doing, 
there's going to have to be a removal of the 1 percent cap on 
some of our alternative assessments for our special needs 
students.
    An example of that would be if you look at Madison Central 
High School, we are about 1,750 students. And if you take 1 
percent of that for alternative assessment, that would be 17\1/
2\--let's round up--18 students. At Madison Central, we have 
our severe disability students--we have three classrooms, 10 
students each, for a total of 30 students. And so now we're 
looking at an accountability that doesn't include the entire 
population that could have an IEP that says that they should be 
on an alternative assessment.
    And so I would like for there to be an alternative 
assessment for--just remove the 1 percent cap there and let 
that local IEP--ARC committee determine that--that would be 
really good.
    An issue that we find that we struggle with, at least, in 
my district and my previous district is the highly qualified 
part of the reauthorization. Whenever we look at the highly 
qualified, it's very burdensome. Our teachers struggle--we 
struggle to hire special needs teachers. And as we are all very 
aware, some of the best teachers don't come through a natural 
path through certification, and so we'd like some alternative 
ways and not really put the burden on the highly qualified 
mandate about the testing--so, for example, to be highly 
qualified.
    We want to get highly qualified teachers for all of our 
students, and special needs is one area that we struggle in. We 
want to have high standards and put the best teachers in place 
there. But to do so requires a very burdensome testing process. 
We'd like to advocate for some local decisions there on what 
that highly qualified status looks like.
    And then last, just simply as a principal, I was very 
fortunate a month ago to come to Capitol Hill and to petition 
on behalf of principals across the United States. But certainly 
as the Met Life NASSP Principal of the Year from Kentucky, I 
just have to talk about the four school turnaround models that 
we have that include getting rid of the principal in each one 
of those models if they have been in their position for more 
than 2 years.
    Obviously, I think there are certainly principals out there 
who are poor principals who need to be removed. But, certainly, 
if we just put one assessment, or if we put one measure on 
those principals and remove them, then it's going to be quite 
difficult to keep some of our best principals. A really good 
example would be in our home State, in one of our counties, our 
principal has been there for just a little bit over 2 years. 
And he is in the bottom 5 percent--his school is, and we want 
to turn that school around, and he seems to be doing a really 
good job.
    And if you look at their college and career readiness 
standards, they're doing very well. But based on the sanctions 
listed by the 5 percent, he's got to lose his job. As a result, 
I cannot support the four school turnaround models. And I would 
like to just ask for a fair analysis first to determine whether 
the existing principal is making gains and use some alternative 
measures to make those gains.
    Thank you.
    The Chairman. Thank you very much, Mr. Thomas.
    Let's see, Senator Paul.

                       Statement of Senator Paul

    Senator Paul. Thank you, Mr. Chairman.
    I want to thank the Chairman and the Ranking Member for 
having this hearing. I continue to learn more about the issue 
every time I hear more about not only No Child Left Behind, but 
about various ideas. I think it's a recommendation for the 
hearing that we have a packed crowd. We have had standing room 
only the whole time. I think it is good.
    And I, for one, see problems. As a physician, you try to 
diagnose the problem, you try to fix it. And we should continue 
to look at that as a problem solving sort of orientation for 
this.
    I do think that there is a large philosophical sort of 
debate and battle that is part of this. For example, I hear 
ideas from people who are probably Republican, Democrat, 
liberal, and conservative on this panel, and a lot of them are 
good ideas. To my mind, it's not whether it's a good idea or 
bad. It's where it gets instituted that does make a difference.
    For example, Mr. Grier has ideas. Mr. Seaton has ideas. 
They all sound good. But I'm afraid that once we make them 
universal--and while I would probably vote for Mr. Grier to be 
superintendent or Mr. Luna to be superintendent of their 
schools, I don't want them to be the national superintendent of 
schools.
    And so it is a big difference--how much is it Federal. I 
think for the most part, the farther we--and this is a 
philosophical point. The farther we get away from the local 
school, the worse it gets. And the farther we get away from 
local government to national government, the worse the 
oversight gets.
    I don't know that we can judge who a good teacher is. I 
think Ms. Geisselhardt is a good teacher, but I would have to 
know more. I would have to sit in her class, and I would have 
to look at that. I would have to maybe judge on how well her 
students are doing, but it's complicated. But I don't think I 
can ever know here whether she's a good teacher or not. And 
Columbia, KY is different than Memphis. It's different than 
Houston.
    My argument for it is to keep in mind that there is a 
philosophical question here on local versus Federal. And I 
think we're coming together in understanding that maybe Federal 
overbearing or Federal overreach in education hasn't been good, 
and that it sometimes makes people a number.
    People talk about special needs kids and special education 
kids. I think to put a number on them that makes them some sort 
of abstract mathematical percentage is a mistake. I mean, I 
don't know how I can tell whether 17 or 30 is right for the 
school district in Richmond, KY. I would think only locally 
they could figure that out.
    I think we shouldn't have numbers in our bill that say--I 
think we all are concerned. I don't think Mr. Thomas is not 
concerned about special needs. He's concerned about being 
judged unfairly or his school is.
    I think we've gone a long way in the right--a long way 
toward fixing some of these problems with AYP, with yearly 
progress. But I still am concerned that we still have the 
testing mandates, which will have people practicing to do 
tests, to do tests. I don't think we fixed that. I think that 
is still a problem that should be and could be fixed.
    And so I'm glad we're having this hearing, because we still 
will try on the floor--and I would encourage all of you through 
your organizations--anybody through any teaching organization 
to still continue to lobby Congress because I've been at least 
given some indication that we may allow amendments on the 
floor, relevant amendments to this. And I hope we will so we 
can make it better. We don't do this very often. We haven't 
done it in a long time. We need to try to make it better.
    I am concerned and I'd like to ask this question--is that 
we are still going to judge the bottom 5 percent the way we've 
been judging schools. But we've kind of determined the way 
we've been judging schools wasn't very good. Somebody can help 
me out if I'm wrong on this, but I think we're still going to 
judge the bottom 5 percent the way we've been judging schools.
    The problem I have with that is my kid goes to a public 
high school and it gets awards from either Forbes magazine or 
Newsweek for being one of the best schools. But it's also told 
it's failing by No Child Left Behind--37 States want out. And 
so, really, that makes me think the law is not very good and 
maybe we need more dramatic changes than what we're actually 
addressing.
    I guess my question is how are we going to determine--if 
our model is not working for determining which is a good school 
now, is it a good thing to keep the 5 percent judged that way, 
or do we need to reassess how we judge who are the bottom 5 
percent? And I'd like to start out with Mr. Thomas and see if 
he'll make a comment on that. But then I'd be more than welcome 
to hear other folks on this as well.
    Mr. Thomas. Thank you, Senator Paul. Well, I just think 
that it's very difficult whenever you use one measure to 
determine what your school is going to be successful as. Under 
the old law, certainly Madison Central High School has never 
met AYP. And so, therefore, we have struggled historically to 
meet that standard, and, of course, the standard, as it rose, 
became quite frustrating.
    However, whenever we look at our new model, Madison Central 
High School is in the top third of college and career 
readiness. So whenever you're using just one kind of goal to 
determine what's meeting that standard, it's quite frustrating 
because it becomes--one target is successful and another target 
is not. It's kind of like what you're mentioning about your 
local school--is that according to one standard, they're a very 
good performing school. But according to another standard, 
they're not meeting that.
    And so that's the issue that I struggle with there as 
well--is that we need to use multiple forms of assessment if 
we're going to do that--not over-testing, by the way. I'm not 
advocating for that. But let's look at the school holistically 
and see what we're doing.
    The Chairman. Might as well just continue on down the line. 
I assume all of the ones are up to respond to what Senator Paul 
said, I suppose.
    Mr. Henderson.
    Mr. Henderson. Let me say, Senator Paul----
    The Chairman. I don't know if your hand went up, but since 
we were there, let's just go this way.
    Mr. Henderson. Thank you, sir.
    Let me respond, Senator Paul, if I might, to your opening 
observation that this discussion we're having today involves 
primarily a philosophical difference about whether the States 
are the best laboratories for establishing significant reforms 
for education and whether the Federal Government may, in fact, 
have a role to play. I don't think anyone is advocating the 
nationalization of public education. The Supreme Court, as you 
know, has already addressed that issue in San Antonio v. 
Rodriguez, a 1974 case which has acknowledged that public 
education is not a fundamental right under the Constitution.
    But that same Supreme Court sought to examine early efforts 
to implement a states' right philosophy with regard to public 
education and found it deeply wanting and, in fact, offensive 
to the Constitution, because the results of the effort did not 
provide simply just an equality of educational opportunity but 
significant investment in those communities that had the least 
amount of political power or influence or were tainted by 
racial bias which was evident in a number of the States that 
spoke most loudly in favor of States' rights in public 
education.
    The decision in Brown v. The Board of Education 
established, established, a Federal interest which No Child 
Left Behind essentially sought to vindicate by ensuring that 
the use of Federal dollars could be an incentive to improve the 
quality of public education available to students. That 
principle hasn't changed. It has been a bipartisan consensus 
that included people like Senator Alexander, who, as Secretary 
of Education, sought to implement similar efforts, and George 
W. Bush, who, in fact, signed No Child Left Behind into law.
    This is not about a philosophical conversation about how 
best to educate students. It's about the practical effects of 
the failure to recognize the constitutional interest that every 
student has to a quality public education which was not being 
adequately served by State law. And so under the circumstances, 
I don't think this bill represents an extension of that 
principle. I think it represents a fair representation of where 
the principle stood.
    Now, I've expressed my concerns about the accountability 
system because I think under the guise of reform, the 
provisions in the bill go too far to negate the legitimate 
Federal interest that we recognize exists. So rather than 
weakening that Federal interest, given the history of bias and 
discrimination under the State system, if anything, we should 
be looking to reinforce it in a more significant and positive 
way.
    I don't see this as a philosophical debate at all. I see it 
as a practical debate affecting real live students and the 
consequences of a failure to educate them properly.
    The Chairman. Mr. Grier.
    Mr. Grier. Thank you, Senator Harkin. As I understand the 
bill as it's written today, the bill doesn't just address the 5 
percent of the lowest performing schools or the schools that 
have the largest achievement gap. It also gives States the 
option of identifying additional low performing schools in 
their States. And I think that the States should be commended.
    Now, whether or not we get into a debate about whether or 
not some States are different than the others--I happen to 
believe that States ought to have some flexibility in that 
arena, as I also believe local school districts should. When 
our State told us last year that we had four low performing 
high schools that they labeled dropout factories, well, quite 
frankly, we had three or four other high schools that had--we 
had some input--we may have decided perhaps needed more 
attention than two of the ones on the list. They were 
identified by one narrow definer.
    And so how you intertwine all that local flexibility and 
the State flexibility, I think, is important. It's often more 
difficult to do than it is--than to say that we ought to do it.
    The Chairman. Now, I'm going to skip over one, two, three. 
I know that both Mr. Hess and Mr. Schnur have to leave. It's 
11:30. I will go to those two and then come back to the three. 
Mr. Schnur and then Mr. Hess.
    Mr. Schnur. Chairman Harkin, thank you. I just got word 
that I was able to move my meeting back, so I've got a little 
bit longer to get back to New York.
    The Chairman. Oh, well, then, I'll get to you later. OK.
    Mr. Hess.
    Mr. Hess. You've got remarkable power, Mr. Schnur--move 
meetings from anywhere.
    Thank you. I'd like to just say a couple of words about 
Senator Paul's question, and then really just a couple of other 
points I'd like to show the committee. One is I think Senator 
Paul is precisely right. One of the design flaws in No Child 
Left Behind was that--one of its great strengths, as Mr. 
Henderson has indicated, was that it essentially took a 
national x ray of where students were. It told us how students 
were performing at a given point in time.
    Now, the problem with that and the way it was used is that 
an x ray doesn't tell you the cause. Knowing that students of 
this demographic profile in this community are at this level of 
achievement in reading or math or science does not tell us 
whether that is due to the school's performance, whether it is 
due to their home environment, or whether it is due to all of 
their prior years of schooling.
    One of the problems with that x ray that No Child Left 
Behind took was we had tried to then use it as the basis for 
identifying whether schools were performing adequately or not, 
and I think that was a profound design flaw. Many of us pointed 
this out close to a decade ago, and it is still--it is very 
healthy to see the Senate wrestling with this today.
    The superior alternative to try to identify this 5 
percent--again, recognizing there's going to be murkiness about 
whether it's the exact rate, 5 percent--is to focus on how well 
those students are faring in the course of that academic year. 
So what we really want to do is look at how much those students 
are learning in things that we deem essential in the course of 
an academic year. That is the right essential starting point 
for identifying whether schools are doing their job well.
    Again, because I think it is an imprecise science, because 
I think no matter how well-intended Federal interventions may 
be, they are, unfortunately, likely to do more harm than good, 
I think it is not useful to try to prescribe models. But I do 
think as, you know, picking up 10 cents on the dollar for State 
and district outlays, it is appropriate for the Federal 
Government to insist that States be identifying and coming up 
with strategies to address these.
    Just a couple of other points I'd like to make real quick, 
since I, unfortunately, am required to leave. One, I think 
we've heard a number of what I would regard as terrific 
suggestions and practices about how to educate children in 
schools and districts. I think the mistake is to imagine that 
when they are good ideas, we need to try to then promote them 
and encourage them from Washington.
    It's not that--there is one question which the Senator 
pointed--Senator Paul pointed out which is the philosophic 
question. But even pragmatically, when Mr. Grier is trying to 
drive school improvement in Houston, what he is doing is 
working with a teacher unit, Houston Federation of Teachers. He 
is working with a district over which he oversees control. He 
is working with a board. He is working with employees who 
report to him. That is profoundly different from what the 
Senate or House are attempting to do in writing legislation.
    All ESEA can do is empower the U.S. Department of Education 
to issue regulations attached to funding, which then must be 
funneled through State education agencies, which then must be 
picked up by school district superintendents. And at the end of 
the day, what we wind up with are rules, regs, case law which 
create enormous and often unanticipated compliance burdens.
    Just one very evocative illustration is--Robert Bobb did a 
couple of years as a Detroit financial manager. One of the 
crazy ideas he tried to promote was the idea that they ought to 
be moving title I dollars out of substitute teacher funds and 
field trips into early childhood literacy. The State education 
agency told him he was not permitted to, that this was in 
violation of Federal guidelines around title I. Now, the U.S. 
Department of Education said that was incorrect, that he was 
actually--and consistent with the appropriate interpretation of 
the law.
    But that's what happens when we try to write laws from 
Washington and they wind up on books at the State and in the 
district. We wind up creating enormous and unexpected hurdles 
for people trying to solve these problems in schools and 
districts.
    Just two other really quick points--one, let me say that 
when it comes to school turnaround, when it comes to teacher 
evaluation, I have enormous respect for what Mr. Schnur is 
talking about, Mr. Luna, Mr. Grier. But I would argue that 
decades of experience in education, and particularly out of 
education, tell us it's not whether you do it. It's how well 
you do it.
    There are three decades of research, for instance, on 
turnarounds, total quality management, corporate re-
engineering. In the best case scenarios, these work 30 percent 
of the time. To imagine that we can identify some models that 
we will then require folks to use and imagine that that is 
going to increase the likelihood that they will succeed is, I 
think, just too--is to allow our aspirations to exceed what we 
can actually competently and usefully do.
    And just to give one very concrete example of--I think, 
particularly on the teacher evaluation front--what I am 
concerned about, you may have read or heard about new school 
models, hybrid schools, like Carpe Diem or Rocketship academies 
or the School of One in New York City. One of the important 
things to note is these school models become very nearly 
illegal under much of what we're talking about in terms of 
state-of-the-art teacher evaluation.
    These schools do not have a teacher of record in the 
conventional fashion. So in order to try to track students to a 
teacher and hold that teacher accountable in a hybrid model or 
an online model or the School of One model simply doesn't work. 
If you require that teachers are going to be evaluated in this 
fashion, you either need to provide substantial waivers and 
loopholes or make sure that we are not regulating in a fashion 
that locks us into the 19th Century schoolhouse.
    Thank you so much. I was honored to be here today.
    The Chairman. Thank you very much. Very good. I had three 
more. I had Neas, Luna, Geisselhardt, and Schnur--I guess four. 
If you could give me just a couple of minutes--because I want 
to get to Senator Isakson and Senator Franken--just a couple of 
minutes, please.
    Ms. Neas. I'll be brief. I wanted to just review quickly 
with the committee--who are students with disabilities, because 
I think there is a great deal of confusion about who is a 
student with a disability who's getting special education 
services.
    Eighty-five percent of students in special education have a 
disability that does not prohibit--that does not bar them from 
doing grade level work. If we look at who the categories are, 
42, almost 43 percent of kids in special education have a 
specific learning disability. Almost 20 percent have a speech 
or language delay. Eleven percent have something called other 
health impaired.
    So for the kids who could probably be appropriately in an 
alternate assessment on alternate academic achievement 
standards, those 1 percent kids, if we added up all the kids in 
the category of mental retardation, all the kids in the 
category of autism, all the kids in the category of traumatic 
brain injury, and all the kids in the category of multiple 
disabilities, we have far--we're still close--not all those 
kids are going to be incapable of learning grade level work. 
But a lot of those kids are being directed to an inappropriate 
assessment for them simply because of the nature of their 
disability category.
    I have been in too many IEP meetings, and I agree with my 
colleagues here on the panel who say the test is driving too 
many things. I've been in IEP meetings in Virginia for kids who 
can do grade level work in certain subjects who have been told 
they can't access the general curriculum because the test 
dictates what curriculum they have. We can't put more kids into 
this track where they can't have access to the general 
curriculum, and they can't learn what all the other kids are 
being exposed to.
    I think that's just a really important point that we 
understand--who are these kids. And a very, very, very small 
number of them are kids who cannot do grade level work.
    The second thing is, I think it's absolutely essential that 
teachers have the skill and knowledge to do the job they've 
been asked to do; and, third, that testing has to inform 
instruction. I don't know why we're testing if we're not doing 
something that's going to turn around and benefit kids. I think 
the issues and concerns we have with the bill--we need to make 
sure that we're not putting more kids in an inappropriate 
assessment which is tracking them out of the general education 
curriculum.
    I want to add just one quick thing about accountability. As 
you know, your bill limits accountability to the bottom 
performing 5 percent schools. And with the other 95 percent of 
the schools, one of the things that we're very concerned about 
is--we still have the disaggregated data reporting requirement, 
which is really good. But where there are achievement gaps, we 
think there should be some trigger that something has to 
happen. And I keep calling it Subsection Do-Something, where if 
there is an achievement gap, we do something more than report 
it--that schools need to look at why that gap is there and take 
some action to address it.
    I'm not going to sit here and tell you what that should be. 
Schools know what that should be, but they need to do 
something. Those are my two points.
    The Chairman. Thank you, Ms. Neas.
    Again, just a couple of minutes, I want to give Senator 
Isakson-- who's been waiting a long time--a chance to say 
something.
    Mr. Luna. Thank you, Senator. I just wanted to comment that 
under the current No Child Left Behind law, we are on track for 
100 percent of our schools to be held to Federal sanctions. 
Under the new law, it's 5 percent. I think it finds the proper 
balance. I think it's also important to understand that States 
have the responsibility--under the new law, States would have 
the responsibility to intervene for all schools. It's just the 
Federal Government is only prescriptive on 5 percent.
     I think that finds the balance, Senator Paul, that I think 
those of us who consider ourselves conservative are looking 
for, what is the proper role of the Federal Government here. 
The U.S. Constitution is silent when it comes to education, so 
the 10th Amendment says it's left to the States. My 
Constitution at the State level is very specific that I have a 
responsibility to provide a uniform, thorough system of common 
public schools.
    I think there are some on this panel who think that if the 
Federal Government does not mandate something, the States will 
not do it. And I think our actions speak otherwise.
    Ten years ago, we had a law that required--before No Child 
Left Behind, we had Federal laws that required standards and 
assessments for all students. But 39 States had opted out of 
it. Today, we have States that, on their own, without any 
mandate from the Federal Government, have adopted a standard 
that is comparable to any academic standard in the world. And 
we're moving toward assessments that will be less intrusive and 
more informative, and we have put forth a plan for an 
accountability system that is an even higher level of 
accountability than the current No Child Left Behind requires.
    I don't think that it's an accurate portrayal of the 
attitudes of States today to move forward with a bill that is 
based on the premises if the Federal Government doesn't mandate 
it, States will not do that. I think States have demonstrated 
that they're more than willing and on their own have adopted a 
higher standard and a higher level of accountability.
    The Chairman. Thank you, Mr. Luna.
    Ms. Geisselhardt, quickly.
    Ms. Geisselhardt. In listening to Ms. Neas, I think 
Kentucky must be a little ahead of the ball game, as far as 
trying to close these achievement gaps. When we see these gaps, 
that does mean something needs to be done. And that's the 
problem, actually. We're working very hard at closing these 
gaps. And I also agree with her that the ESEA and No Child Left 
Behind have helped tremendously the majority of the special ed 
students. As she was saying, many of those students are able to 
work at grade level.
    But the ones I was referring to were those that are not 
capable. No matter what we do with those students, no matter 
what interventions we use, they are not--they're identified 
because they are not capable of working at grade level. And 
they should be assessed according to their IEPs rather than 
according to the assessment----
    The Chairman. They fall into that 1 percent category.
    Ms. Geisselhardt. That depends on your numbers in your 
district. And we've never had the number in our districts to 
fall into that 1 percent. They go in with our regular 
accountability. And while I do have this mic, I do want to 
emphasize what Mr. Hess said as far as funding. That is so very 
important.
    I don't think that more funding is the answer by any means 
to education. The answer is to get funding channeled in the 
right direction. There's an awful lot of waste in education 
funding, and there just needs to be more flexibility as far as 
the use of funds.
    The Chairman. Very good.
    Last, and then I'm going to go to Senator Isakson.
    Mr. Schnur. Thank you, Chairman Harkin. Just three very 
quick points on testing, turnarounds, and the urgency of 
passing the bill.
    First of all, on testing, Senator Paul raised a point that 
I think we--in this country, there are schools and systems that 
have become too myopically focused on tests as the one 
indicator. And I think that we haven't seen a good organization 
drive progress without a set of measurable goals that are 
driving progress every day. I think we've gone too far in the 
direction of one test.
     I think this bill includes some important components, as I 
understand it, to go beyond just testing, but to look at things 
like--including not only high school completion rates but 
college enrollment rates and the percentage of kids going to 
college without remediation. I think that's a very healthy 
move, to focus on goals and outcomes but not just tests. That's 
one point.
    Second, on turnarounds, I must say, from my perspective, 
the capacity to turn around low-income schools is very limited 
in this country. I don't believe just from a practical 
perspective in the next few years we've got the capacity to 
turn around more than a fairly low percentage of the most low 
achieving schools. So while I agree with many of Mr. 
Henderson's comments about accountability, I don't think we 
should overreach in terms of the Federal Government trying to 
do too much, too many schools directly, because we just don't 
have the capacity to do it.
    My concern, though, is on the achievement gap schools. I do 
think--I was a public school kid. My kids are going to public 
schools. There's a lot of public schools around the country 
that are serving many kids well but not kids in great need and 
kids of color. I think that those schools aren't going to 
improve for the kids in greatest need if there's not some press 
to improve that. I think that's an area for focus.
    Then third and last, I would just say on the urgency of 
this bill overall, this is a race against technology. It's a 
race against the economy. You know, one piece of data that 
strikes me is in 1973, there were only a quarter of jobs in the 
United States that required some post-secondary education--a 
quarter. In a few years, two-thirds of the jobs in the United 
States will require some post-secondary education. This is a 
change of seismic and rapid proportions by historical 
standards.
    We were once first in the world in college completion 
rates, high school completion rates. We've slipped to 15th by 
some indicators, not because we've gotten worse. We've stayed 
the same, while other countries are moving ahead. And the 
economy is demanding more technology. It's demanding more--I 
think we don't have the luxury of sitting around--I think the 
leadership you're providing here to move this is important. I 
think kids and educators and teachers are not looking for a 
prescription from Washington, but they're looking for 
leadership from Washington. And I salute your efforts to 
provide that here.
    The Chairman. Senator Isakson, thank you for your patience.

                      Statement of Senator Isakson

    Senator Isakson. Well, thank you, Mr. Chairman, for the 
courtesy. I want to thank all the guests that have been here to 
testify today. I have--as I always do, when educators are 
present--learned something. You've all had a great input today 
into the conversation.
    I know Ms. Neas and Mr. Thomas have both expressed 
themselves already on the issue of special assessment of 
special education kids. I'd like to ask Ms. Danks and Mr. 
Seaton, who are in the classroom every day--and I think you're 
the lead special needs teacher. Is that not correct, Ms. Danks?
    One of the things I have been an advocate of, as the 
chairman knows, in this committee is some flexibility in the 
assessment of special needs children, in particular, and 
propose that rather than having a limited narrow waiver for 
cognitive disability that instead we allow the IEP to determine 
the assessment vehicle each year that the special education 
child is subject to, because that's the one time you have the 
parent and the teacher and the school present making the 
decision for that child in terms of how you're going to measure 
the progress of that child in that next year.
    I'd like to have Ms. Danks and Mr. Seaton just comment on 
that.
    Ms. Danks. I agree with you. I think the IEP process is 
great at getting everyone together and focusing on that one 
student. I think when we come to assessing based on State or 
national standards or whatever we're talking about, we really 
forget that individualized part of the individualized 
educational plan.
    I know at my school we're constantly battling between the 
State standards that are far beyond our students' cognitive 
abilities at this point in time and their IEP which actually 
does address the skills that they need in order to function 
after they're done with the public school system. 
Unfortunately, a lot of times, those two documents aren't 
working together, and so we're using a lot of our time to 
figure out that balancing game.
    As far as assessing students with special needs, I think 
it's essential whether--I think an alternative assessment is 
great. I know in Maryland, we had the typical assessment that 
most students took, and then we also have an alternative 
assessment. For a while, we also had a modified assessment for 
those students that fell outside of that 1 percent but still 
were not able to complete grade level work. They are doing away 
with that, and I'm not sure of the policies with that.
    But as far as assessing students with special needs, I 
think that our students have enough obstacles, and for us to be 
another one saying that they can't do--I think that's such a 
disservice to them. I think we need to continue holding our 
high standards and provide an effective assessment, and I think 
that can be determined at various levels. Like you had 
mentioned, with the IEP process we can do that during--we can 
assess students based on the IEP and we may be serving them 
better.
    At our school, we actually went through a process where we 
created an assessment. We got a waiver from our district 
assessments, and we created an assessment to look at our 
students' continuous progress, and that's the exact phrase that 
we used. And it took us about a year to create this assessment. 
We were continually looking at student progress as it relates 
to that student's capabilities.
    We're not holding them to some standard that someone else 
told us to. We're actually looking at what the student is able 
to do throughout the school year based on what they have been 
able to do and what we hope we're able to push them to do in 
the future.
    Senator Isakson. Before I get to Mr. Seaton, would you 
please, if you get a chance, allow the committee to have the 
Maryland alternatives that you're using in terms of measuring 
progress for those special ed kids? I'd love to see what you've 
developed.
    Ms. Danks. Sure. And, again, that's just at our school 
level, and----
    Senator Isakson. I understand.
    Ms. Danks [continuing]. And I think that autonomy was 
fantastic because we were able to go through a process that 
taught our entire school staff so much about our students and 
our staff needs. And coming away from that process, we have a 
much greater appreciation for how difficult it is to create an 
assessment, and so we applaud people for doing that. But I can 
certainly share that with you.
    Senator Isakson. Thank you very much.
    Mr. Seaton.
    Mr. Seaton. I do agree also that the IEP is a great place 
to start with using it as a driver for assessment. One of the 
things that's happening in Tennessee now is we have guidelines 
that are set for alternative assessments. And what I've found 
in my classroom is--I try to make sure that I do a thorough 
evaluation of the records and try to find anything that will 
allow me to use alternative assessments if that individual 
needs it. If they don't, I continue to use the Tennessee 
standards that we have--a little more work for me, but I 
outline those things that I believe are necessary at the time.
    I stay in compliance nationally to make sure that I'm 
meeting the special ed requirements--so you're looking at an 
IEP inside of an IEP. You have a set of standards that says 
that--regulatory standards that we have to have that are grade 
level functions, but then I have another set of functions that 
are necessary for that young person to be successful enough to 
want to go to the next level and then move forward.
    Senator Isakson. I thank you both, and I don't have time to 
go to another subject, except to say, Mr. Luna, or Dr. Luna, 
whichever it is, Idaho is doing a great innovative thing by 
engaging parents more in the education of children. I know in 
your pay for performance, the parents actually have some say in 
that merit-based system, and I commend what you all are doing 
very much.
    Mr. Luna. Thank you.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. I'd like to ask Ms. Neas--I know you put 
yours up right away to involve yourself in that last discussion 
with Mr. Seaton and Ms. Danks.
    Ms. Neas. Thank you, Senator Harkin. I think what my two 
colleagues here on the panel described is exactly what's 
appropriate and available under current law. Under the 
Individuals with Disabilities Education Act, an essential 
component--an essential decision that each child's IEP team 
needs to make--and the IEP team includes the child's parents--
is which assessment is appropriate to that child.
    Does the child take an alternate assessment based on 
alternate achievement standards? Does the child take the 
regular assessment with or without an accommodation or 
modification? That is something that's currently required under 
IDEA. What my two colleagues just described is exactly what's 
supposed to happen. For those kids that are on alternate 
achievement standards, you have to design something that's 
appropriate to that child.
    Those kids are in a unique place where they are not on 
grade level. I oftentimes call them act of God kids. Short of 
an act of God, these kids are never going to be on grade level. 
It doesn't matter how much their mother loved them, what they 
had for breakfast, how many books were in their home. These 
kids are not going to be on grade level. They need a different 
measure.
    But they need to make progress. Someone needs to be making 
sure that this year they learned more than they learned last 
year. And whatever it is to that child is what we need to have 
continue.
    There's nothing in the law that says for those--what my 
concern is, is that when you put kids who don't belong in that 
category of kids with the most significant cognitive 
disabilities, when kids who are outside of that are put in that 
and then otherwise----
    The Chairman. I think there's some confusion here, if I 
might interrupt. There's a 1 percent rule----
    Ms. Neas. That's right.
    The Chairman [continuing]. That says that schools can 
automatically--I guess that's the right word--automatically 
take up to 1 percent of kids who are in IEPs?
    Ms. Neas. What the law says is that up to 1 percent of 
kids, all kids, which roughly translates to about 10 percent of 
kids with disabilities, can have their progress measured on an 
alternate achievement standard--an alternate assessment based 
on alternate achievement standards. What the current regulation 
allows is that States can count those 10 percent of kids in the 
1 percent as proficient. There's nothing that says States can't 
give more tests--can't assess more kids, but they can't count 
them as proficient outside of that 1 percent.
    And that's what we're seeing in a number of States where 
they're giving--more than 1 percent of the kids are taking this 
alternate achievement standard, and that's where our concern 
is. We think that too many kids are being inappropriately 
placed in that 1 percent. But we absolutely believe that there 
are kids who are appropriate to that 1 percent.
    The Chairman. Do you disagree with that, Ms. Danks?
    Ms. Danks. I don't disagree. But I know something I've seen 
in a lot of IEP meetings with students who attend a 
comprehensive school--so that other percentage that we've been 
talking about, not the students with the most severe 
disabilities. And a lot of times, when the parents come to the 
meetings, they say, ``I don't want my kid to be taking that 
test, so we'll just opt out of that,'' because this testing and 
assessing has just gotten so out of control. And the parents 
see that it's out of control, and they don't want their child 
participating in it.
    Sometimes there is a lot of pressure from the parents to 
exclude the student from that general assessment just because 
of the stigma attached with that. I agree that that's an issue. 
I'm not sure if 1 percent is the magic number. We're talking 
about States' rights versus the Federal Government. I'm not 
sure if 1 percent is the correct number. I'm not sure if there 
is a correct number. But I do know that that's definitely 
something to be considered.
    I also think on top of that--just to go back to the 
original question, I think that a huge component we're missing 
with this 1 percent are the life skill standards, so that--we 
could use the IEP, which are those academic standards, and some 
life skill standards. But there are no States--there's not a 
requirement that States have those life skill standards, and 
some States do and some States don't.
    I think that's a huge disservice to these students, and 
we're not preparing them for what happens for most of them when 
they're 21 years old and they exit the public school system. 
We're not doing a good job of getting them ready.
    Ms. Neas. Senator Harkin, if I could just add--I think this 
whole notion of life skills is so important, and I don't know 
the answer. But it may be an IDEA issue and what's appropriate 
to that child and not necessarily an ESEA issue. I just wanted 
to raise that.
    The Chairman. Mr. Seaton.
    Mr. Seaton. Yes. For Tennessee, we have built in a way to 
kind of catch some of that 1 percent. Young people that have a 
certain IQ score, we use that as a baseline. If they are 
average functioning, close to, they are not allowed to be 
placed in that alternative assessment bracket. So one of the 
things that--people who want to opt out are not able to do that 
just based on the fact that their young people--or you believe 
that this will be better for your scores.
    Ms. Danks. I'm sorry. Could I just add one thing? I think 
the problem we're falling into, too, is there's either an 
alternative or what everyone else does, and children fall in a 
lot of spots between those two extremes. And so I'm not sure 
exactly how it's worded in the law, but the idea of continuous 
progress can mean a student takes an assessment and they score 
30 percent in this month, and then they score 35 percent the 
next month, and that's continuous progress.
    And for some of our students who don't fall in that 1 
percent but who are also not performing at or above grade 
level, that's still a way for that student to show that they're 
making that continuous progress and for the school to 
demonstrate that they are providing the instruction that 
enables that continuous progress.
    The Chairman. Senator Franken.

                      Statement of Senator Franken

    Senator Franken. That's kind of a good jumping off point 
for my--where I want comments from, and it's about computer 
adaptive testing. And to what extent does this--certainly in 
terms of special ed kids and measuring growth.
    I've been struck by some of--Mr. Luna talked about the 
growth model. And I know Mr. Luna is concerned with gifted 
kids, and I know that from teachers I've talked to in 
Minnesota, the way the testing has been done in No Child Left 
Behind is what percentage of kids exceed a certain arbitrary 
benchmark of proficiency. And so you can take those gifted 
kids, and you know that kid's going to be proficient no matter 
what you do to that kid, so they ignore the kid. And I think 
Ms. Geisselhardt talked about that as well.
    Ms. Danks, you talked about computer adaptive testing, and 
I want to followup with you on--or you to followup on that, if 
you like.
    Mr. Thomas, you talked about a growth model and why a 
growth model is so important. And Mr. Hess, before he left, was 
talking about just how kids are progressing during the year, 
and you can do that with a computer adaptive test, because you 
can take it multiple times during the year instead of what 
we've been doing, which is giving a test at the end of April, 
and the results come back, and they're autopsies.
    Mr. Schnur, you talked about the importance of doing it 
beyond one test. And the thing with the computer adaptive test, 
you can take it multiple times over the year and you can 
measure growth.
    I'd just kind of like for anyone who wants to talk about 
what--if they see any downside to the computer adaptive test. 
And we've made it--one thing we've done is made it voluntary. I 
mean, maybe that's one of the federalism issues that we've 
responded to. I think every State should have computer adaptive 
tests, but I've deliberately said this is something you can do, 
you may do, you're allowed to do.
    Does anyone have any feelings about that, or thoughts?
    Mr. Grier. I'd like to just take a quick stab at it. I 
think you're spot-on in what you're proposing. I think the 
infrastructure across the country is very sorely lacking for 
schools to be able to do this on a large scale basis, because 
you just can't march kids into one computer lab in a school in 
groups of 25 and think you're going to be able to do this.
    I've worked in school districts where we had computers in 
every classroom, and it was wonderful. Teachers could do quick 
assessments and get the information back on really a daily 
basis, every 2 weeks, or whenever you wanted them to. But I 
work in a school district now where we don't have that type of 
infrastructure----
    Senator Franken. Do you have a computer lab?
    Mr. Grier. We have a computer lab in most of our schools. 
But very few of our schools have a computer in every classroom 
for every child.
    Senator Franken. Right. Not everybody at the school has to 
take this the same day. You can go----
    Mr. Grier. No. If we're just talking about special ed 
students, that may be different. But I think this technique 
you're talking about applies to all students. It makes it just 
much more difficult in a 3,000-student high school.
    Senator Franken. Yes. But what I'm saying is that I don't 
think all grades have to take it the same day. The third grade 
can take it one day, or one classroom in third grade can take 
it one day, and one classroom--they can go down to the--as long 
as you have a computer lab, which I think schools probably 
should have.
    Mr. Grier. With all due respect, I'm just saying to you 
from living it every day, one computer lab in the school would 
not support the kind of testing model you're talking about. It 
just won't do it.
    Senator Franken. OK. In Minnesota, they seem to be able--
I've talked to schools where they've had one computer lab and 
they've been able to do this. But maybe they're smaller schools 
or something. I don't know.
    Mr. Luna. Mr. Chairman and Senator, in Idaho, we've done 
computer testing since No Child Left Behind started. We never 
did the paper and pencil. We could see the writing on the wall, 
and we've done computer tests all the time. In fact, the first 
test that we rolled out was an adaptive test, and it showed 
growth. But it did not then pass muster under No Child Left 
Behind so we had to take a step backward.
    The law that is being considered today is going to allow us 
to go back to the kind of tests we were actually doing 8 or 9 
years ago, where we could actually measure growth without a 
floor or a ceiling so that we could actually see where a 
student is--how they're performing. I think what you're talking 
about, Senator, is right now, we have assessments of learning. 
We give them at the end of the school year. Those are great for 
accountability systems, and they help inform instruction 
somewhat for the next year.
    But what we need are assessments of learning--or, I'm 
sorry, assessments for learning, where there are assessments 
that are less intrusive and they happen during the regular 
classroom period. I've gone into classrooms before where the--
it's a very high level of engagement, where children are 
engaged and there's a lot of learning going on. And all of a 
sudden, the teacher says, ``OK. It's time for the quiz. 
Everybody close your books.'' It's just like somebody sucks the 
oxygen out of the room.
    The technology is available to capture assessment data 
during a regular lesson plan while it's being delivered. It 
means a heavy dose of technology in every classroom. It's not 
going to get done with just one or two computer labs per 
school. In our State, we've chosen to make heavy investments in 
technology, not with Race to the Top dollars, not by raising 
taxes, not by spending more money on education, but by--we're 
willing to spend the money we already have differently.
    I won't go into the details of our technology improvements, 
but they're very expansive. And every one of our classrooms 
will have the technology available to do the kind of 
assessments that you're talking about without relying on 
rotating kids through a computer lab.
    Senator Franken. My only reaction to that is I've seen 
tests--or I've seen classrooms where you can immediately--or 
they do exactly what you're talking about, and that's fabulous. 
What I'm advocating on computer adaptive tests is one of the 
aspects of it is exactly what you're talking about, which is 
that the test results, if they can be done as the year is going 
by, they're fore-learning, because the teachers can see what's 
going on and use the results for instruction.
    I think Ms. Danks is probably going to speak to the special 
ed fact, which is that if you're measuring--if you're allowed 
to go outside of grade level, you're able to measure growth, 
and that makes the problem we were talking about before--it 
actually, I think, addresses it to some extent, anyway, which 
is that if you're at least measuring growth, kids who are below 
grade level--you can still see that they're learning.
    Ms. Danks. I think you make a great point, and I think that 
applies to all students, not just students with special needs. 
Seeing that continuous growth is going to be much more rich 
data that the teacher is going to be able to use than that one 
time in March or April where the school has probably completely 
stressed out the child to get ready for this assessment. The 
parents know about it. The city knows. Everybody knows about 
it.
    Those results don't come back until June, and, like you 
said, it's like an autopsy. And then that information is not 
always useful. A lot of times, it's given too late. Well, 
here's this skill we taught in September that this student 
never mastered--wish I would have known that in September.
    I think that testing has become such an event, and it comes 
with so much pressure. And like you were saying, it doesn't 
need to be--everybody does it on the same day. It could be two 
to three kids coming in and--some of these kids know how to use 
a computer better than anybody I know. As far as that being a 
barrier, even for students with special needs, I don't think 
that that's an issue.
    Our school does work with a partnership board, and they've 
helped us tremendously in raising a great deal of funds. We 
have several computers in every classroom, a Promethean board 
in every classroom, and I would really encourage schools who 
are struggling to gain that technology to reach out to your 
community partners, businesses that are getting rid of 
computers, because then you can implement this in your schools.
    The Chairman. Mr. Schnur, did you have a response on this?
    Mr. Schnur. Just a quick comment.
    Senator Franken, I think you're absolutely right to focus 
on computerized adaptive assessments. I think in the future 
that's going to be universal in education at some point. I 
think it's a good example of something which, you're showing 
judiciousness in not, like, mandating it. There have been lots 
of bills where people in both parties have said, ``I like this 
idea and require it.'' I think it's right not to require it. I 
think it's good to support.
    The one thing I would say about the goals that drive this 
is that the changing--the transparency and the goal 
requirements and accountability to enable growth and 
improvement is crucial to help all kids, lowest achieving and 
highest achieving. One thing I think is that at a minimum, 
States setting goals for kids to get some absolute level of 
performance----
    Senator Franken. Absolutely.
    Mr. Schnur [continuing]. And proficiency advanced high 
school graduation. I think it is important. Otherwise, we're 
going to make slight improvements, but not keep up with the 
race we're in against the economy.
    Senator Franken. I think we're talking about mandating a 
certain rate of growth so that by the end of the 12th grade, 
they're ready for college--is what the goal is, anyway.
    Mr. Schnur. I think that's the right direction.
    Senator Franken. I'm not sure how that language is in the 
bill in terms of mandating that every year, there'll be a year 
of growth.
    The Chairman. Mr. Seaton, you put your card up, and then 
I'm going to go to Senator Merkley.
    Mr. Seaton. Yes, sir. I teach in the Orange Mound 
Community, which is the second oldest African-American 
community in the Nation, only behind Harlem. And one of the 
things--when you start looking at technology, we need--and we 
are raising money through our district. But we need the support 
of the national government in order to fully use technology 
throughout our system.
    I believe that the rapid assessments that we can get 
through those computer-based tests will be fabulous for us to 
use it as an ongoing tool. But I think that we still need to 
think how long will it take to get that type of technology in 
every school. And I think that one of the things that was 
mentioned, the common core standards, is--and this is where I 
believe we need some national leadership in having those common 
core standards as a base for our national assessment. Since 
we're looking at being competitive globally, we need to know 
where we all are from California to the bottoms of Mississippi.
    The Chairman. Are you saying, Mr. Seaton, that there's an 
inequality of funding for schools based upon their zip code?
    [Laughter.]
    Mr. Seaton. No, sir.
    Senator Franken. We should rectify that.
    Mr. Seaton. No, sir. I'm not saying that at all.
    The Chairman. You should be.
    Senator Franken. Can I read this language just to respond 
to Mr. Schnur, because now I have it in front of me. It says,

          ``If the State chooses to use student growth as a 
        measure of academic progress and to determine if 
        students are on track to college and career readiness''

this is how--

          ``a student performing below the on-track level of 
        performance for the student's grade level under 
        subsection . . . on the academic assessment for the 
        subject under subsection . . . is attaining a rate of 
        academic growth in the subject that indicates that the 
        student will be on track to college and career 
        readiness in not more than a specified number of years, 
        and two, a student who is performing at or above the 
        on-track level performance for the student's grade 
        level on the academic assessment for the subject is 
        continuing to make academic growth.''

    For States that choose a growth model, we are addressing, I 
think, what you raised, I think. Are you satisfied?
    Mr. Schnur. I think that's good. My view is that having 
that federally prescribed but state some big goals about 
increasing the percentage of kids who are meeting big goals is 
important. But I know that's a longer conversation. But I think 
that's a great step in the right direction.
    Senator Franken. Thank you.
    The Chairman. We have a rollcall vote that just started. 
Senator Merkley has been very patient. I'm going to go to him. 
But there's a rollcall--I know it's going to be at 12:15, and I 
think we're probably not going to come back after that.
    Mr. Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you, Mr. Chair.
    And thank you to all of you for bringing your expertise 
here to the Capitol.
    I'll followup on the computerized adaptive testing. Oregon 
was an early adopter of this, and I think folks can't imagine 
any other way of doing it. If schools out there are still using 
paper tests and the results come back months later, that is 
crazy if you're trying to have teachers be able to utilize the 
results in order to understand how their students are 
progressing. And the cost of the technology has come down so 
much that I certainly would encourage folks to explore it.
    I wanted to note another issue, which is we're replacing 
the 
current requirements for adequate yearly progress for college- 
and career-ready standards and the goal of developing statewide 
accountability systems in order to receive Federal funding by 
2014 and 2015. States vary in terms of the progress that they 
have made and will be making to develop this new accountability 
system based on college and career-readiness.
    I thought Superintendent Luna, perhaps from Idaho's 
perspective--and other people are welcome to chime in--could 
give us a sense of how the State is progressing in developing 
and adopting these new assessments or the process that's 
anticipated and the expected timeline and kind of insights 
about the challenge that will occur in terms of this 
transition.
    Mr. Luna. Mr. Chairman and Senator, Idaho, along with 
Oregon and a number of other States--I believe there's almost 
30--are part of the Smarter Balance Consortium that is working 
to develop the adaptive computerized assessments that we're 
talking about. I believe that they will begin piloting them in 
2 years, and then after the pilot begin to administer them.
    At the same time that those assessments are going into 
place, we're also going through the process of adopting the 
common core. And so we have to go through the process of 
aligning our curriculum to the higher standard and now an 
assessment that measures to this higher standard, and all of 
that is, as I said, in place to be piloted, I believe, in 2014. 
And then the year after, it becomes part of the accountability. 
It's the measure that we use in our State as part of our 
accountability system.
    Senator Merkley. And so do you anticipate that the AYP will 
continue to be used between now and then? And if it's piloted 
in 2014, do we anticipate wide adoption the following year or 2 
years later?
    Mr. Luna. Mr. Chairman and Senator, I think that's going to 
be up to the plan that the State puts together. I know that if 
it's a State that--I believe that if it's a State that's 
pursuing a waiver that there's actually 1 year where everything 
kind of stays the same, and that is the transition year. And I 
believe that is 2013, and then there's the transition. But I 
think it depends on the plan that the State puts together.
    Senator Merkley. Do we have time for any other feedback on 
this question? Thank you.
    The Chairman. Yes. Did you have feedback, Ms. Geisselhardt?
    Ms. Geisselhardt. I wanted to address what Senator Franken 
said in regard to formative assessment. I think there is a lot 
of emphasis on formative assessment now, and it is being used 
and used for instruction. But as far as the tests that we would 
use for data collection in comparing students, whether we're 
comparing growth, which is what we hope to be able to do in the 
future, is compare growth--we would have to have--as I said, we 
would still have to have a testing window, where testing is 
done within a particular timeframe in order to use it for 
comparison.
    Mr. Luna. Mr. Chairman, I had one more quick comment, and 
it was in response to Senator Paul's early concern where he 
said that currently we have basically everyone that's 
frustrated with the current law, but now we're going to just 
take what we're frustrated with but only apply it to 5 percent 
of our schools. Under the new law, the 5 percent are not going 
to be held to the same frustrating parts of No Child Left 
Behind today. We will use a growth model, which we cannot use 
under the current No Child Left Behind. It will be a growth 
model that we'll use to measure how those schools are 
improving.
    I think the most important part is now, under the new law, 
there's flexibility. We receive Federal funds right now where 
it's very prescriptive, where the school may need to focus on a 
specific area but the funding forces us to spend it elsewhere. 
Now, because of the flexibility in the law, we can take the 
Federal dollars and we can combine them and focus on the area 
where we know that low 5 percent school needs assistance. It is 
a different approach, and I think it'll be a far more 
successful approach.
    The Chairman. I'll entertain a couple more, but when the 
second bell has rung we've got to go.
    Mr. Schnur, you have something, and then Mr. Grier, and 
then Mr. Henderson. That's it. OK. Go ahead.
    Mr. Schnur. Mr. Chairman and Senator Merkley, I think your 
question is a really important one. And I think there is a 
risk--as I said, there are many good elements in this bill. I 
have some reservations, significant ones, about the incentives 
that I mentioned before and on teacher evaluation and around 
the press for accountability and transparency.
    I think there is a risk without more steps being taken that 
you won't in this bill drive the crucial transparency needed to 
look at performance across the whole system. And in the effort 
to provide flexibility, I think your question got at this risk 
that we may not actually give the public the transparency and 
how well States and schools are doing in educating kids at all 
levels at achievement gap schools.
    I think that flexibility is good. But I think there's some 
important improvements that need to be in this area. Otherwise, 
what you've suggested may become a real downfall of this law. 
But I hope that can be addressed in this legislative process.
    The Chairman. Mr. Grier.
    Mr. Grier. Yes, sir. Real quick, I want to come back real 
quickly to this issue about comparability. This is really a 
serious issue, and I might suggest that the committee consider 
a detailed impact analysis from the General Accountability 
Office or the Congressional Research Services on the impact of 
these changes before you move forward.
    The last thing I wanted to say is that most of the really 
good charter networks in this country that are doing a great 
job are spending between $1,000 and $2,000 more per student in 
these low performing schools and are getting good results. This 
is in addition to the title I money. And I want to come back 
again--I'm really concerned that if we don't look at some type 
of set-aside to provide some additional title I funding for 
these low performing schools that we just aren't going to be 
willing to make the tough political changes that we need to 
make in giving them the amount of funding they need to do this 
work.
    The Chairman. I thought that was ringing a bell. My staff 
just reminded me we have a 4 percent set-aside in this bill 
just precisely for what you're saying. There's a 4 percent set-
aside for that.
    Mr. Grier. For those bottom 5 percent schools?
    The Chairman. Yes.
    Mr. Grier. OK. Thank you.
    The Chairman. Mr. Henderson.
    Mr. Henderson. Thank you, Mr. Chairman. Because this 
discussion is coming to a close, I just want to make a 
concluding observation if I might, which is that we began at 
the outset conceding that No Child Left Behind isn't perfect 
and in need of reform. I don't think anyone disputes that.
    I think there are some who would argue, however, that the 
current draft bill represents an, shall we say, overreach on 
the part of the Federal Government by using its Federal dollars 
of investment to try to guide State accountability. I got that. 
The truth is, however, that ESEA really establishes a floor, 
not a ceiling, on accountability and that States are obviously 
free to exceed and create new standards that, in fact, hold all 
students accountable.
    My only point is this. Look, I celebrate the fact that over 
the last 50 years, the country has changed significantly for 
the better and become a more perfect union. But I also 
recognize that Americans often are ahistorical and fail to take 
into account the specific elements that led to the change that 
we support today. Had the Federal Government not chosen to 
intervene in States' activities in this area, we would not have 
had the improvement that we've seen.
    And those who seem to argue that States, when left free to 
their own devices, can achieve the kind of goals that we all 
seek need only look at the record that has been established 
over the past to recognize that the States themselves are not 
perfect, and that they have, in turn, improved their academic 
involvement because of the Federal Government, not in spite of 
it. And so I think, in that sense, this does the discussion of 
government's role a disservice to the extent that we fail to 
recognize the contributions that the Federal Government has 
made in improving the quality of education for all.
    The Chairman. Well, thank you very much, Mr. Henderson.
    Thank you all very much. I thought this was a great 2 
hours. Here, I guess, as chair, I get to have the last word.
    Let me just sum it up this way. The whole issue of 
elementary and secondary education is a complex issue. But we 
can't just throw up our hands and say because it's complex, and 
there's all these moving parts, that we can't do anything and 
we walk away from it.
    What I've heard here is that there's a role to be played by 
the Federal Government, the State government, and the local 
government. We've just got to figure out what those roles are, 
and they may vary from time to time, depending upon 
circumstances.
    I will State that this bill that we have will not solve 
every problem in elementary and secondary education. Mr. Luna 
said when he talked about No Child Left Behind--he said there's 
the good, the bad, and the ugly. What we've tried to do is get 
rid of the bad and the ugly and keep the good and try to expand 
on it somewhat. So, yes, we've retreated in some areas and 
advanced in others.
    Every bill that passes a committee or a Congress, I can 
poke a hole in it. No bill has everything everybody wants. I 
understand that. This bill is not Mr. Enzi's bill, and it is 
not mine, either. But it is ours. And in that way, we make 
those kind of agreements.
    I think the essential question is: Is it better than the 
present bill? Does it advance the causes of finding the proper 
balances between Federal, State, and local? And does it warrant 
general support across a wide spectrum, knowing full well that 
everyone here has something that probably they would like to 
change in that bill, including Mr. Enzi and me.
    But the question is: Does it advance the cause of what 
we're trying to do in finding those proper roles and trying to 
provide a better structure and framework for every child in 
America to get a really good education so we have really good, 
effective teachers, good leaders in school, that we have 
comparability, that we have--that we even out the--Mr. Seaton, 
I don't think you got my subtlety in that, you know.
    Jonathan Kozol wrote about this a long time ago, about 
savage inequalities, and those still exist today. In Fairfax 
County, our schools have the best computers and everything that 
you can imagine. Why don't your schools have those? Well, 
there's a little bit of inequality in zip codes.
    We have to figure out how we make sure that kids who happen 
to be born in bad circumstances, have a bad family 
circumstance, low income, impoverished area, maybe English 
language learners, maybe have a disability, maybe have a 
learning disability--how do you keep them progressing, too? How 
do you reach down to that child who has the least and make sure 
they get the benefit of our education system?
    That's what we're trying to do, imperfect as it is. That's 
what we're trying to do.
    I thank you all very much. It's been a great discussion.
    The committee will stand adjourned. Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

    Prepared Statement of Alan Knapp, Director of National Policy--
               Partnership for 21st Century Skills (P21)

    Chairman Harkin, Ranking Member Enzi and members of the committee, 
thank you for the opportunity to submit this testimony as the committee 
continues to further deliberate on the reauthorization of the 
Elementary and Secondary Education Act.
    Every child in America needs deep core subject knowledge and 
essential skills to succeed as effective citizens and workers in a 
demanding global economy. These demands require that students be fully 
equipped with proficiencies beyond the basics of reading, writing and 
math. Skills known as the 4Cs; Critical thinking and problem solving, 
Communication, Collaboration, and Creativity and innovation, and the 
ability to learn, apply, and adapt them to all subjects are becoming 
increasingly more important for college and career readiness. Colleges 
and employers agree that students who learn to fuse subject knowledge 
and these skills in school are better prepared to enter the workforce.
    However, these skills are not expressly defined or stressed in 
Federal education policy and are not found currently in this bill. P21 
is pleased that the ESEA reauthorization bill includes a number of 
references to skills aligned with standards and assessments as part of 
college and career readiness throughout section 1111 and section 1131. 
This is a good start. However, we would like to see a more clarified 
definition of the 4Cs or perhaps reference a set of criteria from the 
U.S. Department of Labor which closely resembles P21's Framework for 
Learning, such as their O*NET Content Model, and add this to section 
9101. This would help guide States toward fully incorporating these 
skills into their learning and accountability structures.
    As mentioned previously, this bill does a good job in our view of 
including a number of references to skills aligned with standards and 
assessments as part of college and career readiness. However, we remain 
concerned that nothing in the bill requires local professional 
development applications or allows local uses of funds for professional 
development to enable educators to help fuse these skills with content.
    Additions to this bill to this effect in section 2122 and section 
2123, along with an expanded definition of professional development in 
section 9101, would create the environments and resources for our 
educators to meet this challenge so that all students can apply a range 
of skill competencies alongside core academic subject knowledge and do 
so in real-world contexts.
    P21 strongly believes that students become more engaged and take 
ownership of their education when project-based learning opportunities 
are emphasized that allow students to apply their knowledge and skills 
in real-world contexts. The ESEA reauthorization bill includes a number 
of uses of grant funds to help implement innovative and effective 
secondary school reform strategies to ensure students graduate high 
school ready for college and career, including service-learning, 
experiential, and work-based learning. However, there is no mention of 
project-based learning. The addition of this principle to section 1201 
would allow opportunities for students to apply their knowledge and 
skills in real-world contexts.
    Many of these principles are currently embodied in the 21st Century 
Readiness Acts, S. 1175 and H.R. 2536, which represents bicameral and 
bipartisan legislation that P21 and its members strongly support and 
endorse.
    Sixteen States and many local school districts throughout the 
country continue to unite with us around a shared vision for student 
outcomes and success that are based on identifying and delivering 
rigorous content knowledge and skills that students need to be 
effective workers and citizens in the 21st century global economy. 
States realize we are in a skill-based economy and seek the opportunity 
and flexibility in Federal education law that helps their education 
systems meet this challenge. This momentum isn't sustainable unless 
Federal policy recognizes and creates environments that support and 
encourage State and local innovation in this direction.
    Our Nation's future depends on our ability to prepare children not 
just to succeed, but to lead in the 21st century. P21 believes that 
fusing rigorous content with the mastery of these critical skills is 
essential in order to prepare our students to be global citizens who 
can fortify the American workforce and democracy.

                               ABOUT P21

    P21 is the leading national organization that advocates for 21st 
century readiness for every student. As the United States continues to 
compete in a global economy that demands innovation, P21 and its 
members provide tools and resources to help the U.S. education system 
keep up by fusing core subjects (the 3Rs) with the 4Cs (critical 
thinking and problem solving, communication, collaboration and 
creativity and innovation). While leading districts and schools are 
already doing this, P21 advocates for local, State and Federal policies 
that support this approach for every school.

Prepared Statement of the National Alliance for Public Charter Schools, 
          submitted by Ursula Wright, Interim President & CEO
    Chairman Harkin and Ranking Member Enzi, thank you for your 
leadership in sponsoring a bill to reauthorize the Elementary and 
Secondary Education Act (ESEA). We appreciate the committee's diligence 
and hard work spent updating the ESEA to better reflect the lessons 
that we've learned from No Child Left Behind (NCLB).
    As the National Alliance for Public Charter Schools (NAPCS), we are 
the leading organization advancing quality, growth and sustainability 
for the charter sector. We take an integrated approach to our advocacy 
work that has an impact at both the Federal and State levels. Our 
mission is to lead public education to unprecedented levels of academic 
achievement for all students by fostering a strong charter sector. At 
the Federal level, the U.S. Department of Education's Charter Schools 
Program is the prime focus area for the NAPCS and the charter school 
movement. As such, most of our comments are focused on title V, part D: 
Charter Schools Program, even though as public schools, charters are 
subject to the wide spectrum of obligations under the ESEA.

                        ABOUT THE CHARTER SECTOR

    Forty-one States and the District of Columbia currently have State 
laws that allow charter schools. The NAPCS estimates that there are 
more than 5,600 charter schools serving more than 2 million students. 
While those numbers are small in comparison to the overall size of 
public education in the United States, they mask much larger 
percentages in a growing number of communities. Today, six American 
school districts have at least 30 percent of their public school 
students enrolled in public charter schools. These include such major 
cities as New Orleans (leading with 70 percent) Washington, DC, Detroit 
and Kansas City. Additionally, 18 school districts have 20 percent or 
more of their public school students enrolled in charter schools, and 
nearly 100 districts now have at least 10 percent of public school 
students in charter schools. The large majority of charter schools are 
independent, community-based schools, most often founded by parents, 
teachers or local organizations. Less than 30 percent of charters have 
outside management, either non-profit or for-profit. In almost all 
States, it is the governing board of the school (itself a nonprofit 
organization) that holds the charter, whether there is outside 
management or not.
    According to the most recent national data (a study by researchers 
at Ball State University), charter schools receive about 22 percent 
less in per-pupil funding than other public schools, a figure that 
varies by State and community. The biggest contributor to this gap is a 
lack of dedicated funding for facilities. Only 11 States provide direct 
funding for leases, mortgages, and major renovations.
    Nationally, charter schools enroll a significantly larger 
proportion of Black and Hispanic students than do other public schools. 
Charters also enroll a slightly larger proportion of students eligible 
for free or reduced lunch. They enroll a roughly equivalent percentage 
of special education students as other public schools (11.9 percent vs. 
12.4 percent nationally). In all of these cases, the numbers will vary 
by State and community.
    There is an emerging picture that charter schools serve 
underrepresented students well--low-income and minority students in 
charter schools do better on standardized tests and have a higher 
likelihood of college entrance and completion. Perhaps the most 
intriguing study is one just released by the National Charter School 
Research Project in which researchers reviewed a set of studies chosen 
for methodological rigor. The team did a meta-analysis of the various 
studies, looking through a series of lenses at a vast amount of data. 
Their findings are not unalloyed good news for charter supporters, but 
they did find evidence of strong performance in elementary reading and 
math, and middle-school math, and especially good results in urban 
charters.\1\
---------------------------------------------------------------------------
    \1\ Julian R. Betts and Y. Emily Tang: The Effect of Charter 
Schools on Student Achievement: A Meta-Analysis of the Literature. 
National Charter School Research Project, University of Washington-
Bothell, 2011. http://www.crpe.org/cs/crpe/download/csr_files/
pub_NCSRP_
BettsTang_Oct11.pdf.
---------------------------------------------------------------------------
    There is an impressive body of evidence that charter schools are 
effective at closing achievement gaps, with most research focused on 
racial gaps in urban schools. However, a CREDO study also found that 
low-income students in charter schools, and English Language Learners, 
both outperformed counterparts in district schools.\2\ A new study of 
nonprofit charter management organizations (CMOs) found that while 
their overall average effect on achievement was small (and pulled down 
by some outliers on the low side), those at the upper-end of the 
performance scale were achieving remarkable results.\3\
---------------------------------------------------------------------------
    \2\ Margaret Raymond: Multiple Choice: Charter School Performance 
in 16 States. Center for Research on Education Outcomes, Stanford 
University, 2009, P. 6. : http://credo.stanford.edu/reports/
MULTIPLE_CHOICE_CREDO.pdf.
    \3\ Joshua Furgeson, et al.  Charter Management Organizations: 
Diverse Strategies and Diverse Student Impacts. Mathematica, 2011: 
http://www.mathematica-mpr.com/publications/PDFs/Education/
cmo_final.pdf.
---------------------------------------------------------------------------
    Charter schools can be a lever for change in education reform. As 
we try to improve the quality of education for all children in this 
country, and the reauthorization of ESEA is a key component of this 
work, charter schools are raising expectations with high standards and 
creating innovative programs to better prepare children for 21st 
century life and workforce demands. The programs at the Federal level 
that support charter schools can often spur positive improvements in 
State law and incent States to adopt and support innovative methods of 
schooling.

                  THE FEDERAL CHARTER SCHOOLS PROGRAM

    There are four Federal programs that support public charter 
schools: the Charter Schools Program (CSP); the State Charter School 
Facilities Incentive Grant Program; the Credit Enhancement for Charter 
School Facilities Program; and the Charter Schools Program Grants for 
Replications and Expansion of High-Quality Charter Schools.
    Created in 1994, the CSP provides financial assistance to help 
cover charter school startup costs. Through a competitive process, the 
U.S. Department of Education awards grants to State education agencies 
(SEAs). In turn, SEAs make sub-grants to charter schools. If an SEA 
doesn't apply for funding or if its application for funding is not 
approved, the Department of Education can make grants directly to 
charter school developers. Since its creation, the CSP has received 
almost $3 billion in funding and has impacted hundreds of thousands of 
public school students.
    Created via the NCLB, the State Charter School Facilities Incentive 
Grant Program provides Federal funds on a competitive basis to States 
to help cover charter school facility costs. The program is intended to 
encourage States to develop and expand per-pupil facilities aid 
programs and to share in the costs associated with charter schools 
facilities funding. Over the past 7 years, the program has received 
over $100 million in funding and has leveraged over $1 billion dollars 
on the behalf of charter schools, serving over 472 schools.
    The Credit Enhancement for Charter School Facilities Program 
provides grants on a competitive basis to public and nonprofit entities 
that enhance the ability of public charter schools to raise private 
capital to acquire, construct, renovate, or lease academic facilities. 
Since 2002, the program has received over $221 million in funding 
helping over 335 charter schools finance facilities. It has done an 
exceptional job of using those funds to leverage private investment in 
charter facilities. In fact, more than $9 private sector dollars have 
been raised for every $1 dollar in Federal funds.
    Last, in 2010, the NAPCS, with help from bipartisan leadership in 
both the Senate and House, secured language in the appropriations 
process that allowed for a portion of the CSP funds to be used flexibly 
by the Secretary of Education to establish a grant program for the 
replication and expansion of high-performing charter schools. This has 
allowed the Federal Government to provide funds to high-quality charter 
models that have a strong track record of success.

                  ESEA DRAFT PROPOSAL: TITLE V, PART D

    The NAPCS is optimistic regarding the proposed updates from your 
committee to the Federal charter schools programs. The provisions 
related to charter school quality, sustainability and accountability 
are aligned with our organizational strategy and the best thinking from 
the field. Specifically, we support the provisions related to the 
replication and expansion of top-performing public charter schools, 
including allowing CMOs to apply directly to the Department of 
Education for funding. Expanding the Federal law to allow this 
important growth of the sector will give charter schools the 
opportunity to continue practices proven to deliver results and expand 
innovations designed to meet the needs of 21st century learners. We 
also applaud the bill's rigorous levels of reporting; oversight and 
accountability for public charter school authorizers; focus on 
equitable funding; and prominence given to improving access to 
facilities for public charter schools.
    There are a few areas within title V, part D that NAPCS would like 
to see strengthened as the bill moves through the Senate. We would like 
to expand access to grants in subpart 1, the Successful Charter Schools 
Program, to nonprofit intermediary organizations with a track record of 
success in supporting high-quality CMOs. We are also supportive of the 
National Activities grant that bolsters charter school quality and 
encourages dissemination of best practices. In order to achieve the 
full impact of this program, the NAPCS supports increasing the 
percentage of funds reserved for section 5420. We'd also like to see 
further assurances in place that will require eligible local education 
agencies to demonstrate that they are actively supporting environments 
for charter schools through such measures as having district-wide plans 
for charter growth and enhancing the availability of loans or bond 
financing for facilities.
    The NAPCS is concerned about the definition of ``high-performing 
charter school'' as it may be too narrow, including the requirement 
that schools track persistence rates at institutes of higher 
education--some States simply do not have this capability. Also, by 
requiring that student achievement and growth be a primary factor in 
decisions around renewal could present conflicting requirements for the 
charter schools between authorizing State laws and the Federal program. 
We suggest that the word ``primary'' be removed to allow for multiple 
measures of academic performance.
    Moreover, we have concerns that the definition of high-performing 
charter school applied to subpart 1, section 5411, may have unintended 
consequences in the form of unfairly limiting credit availability to 
worthy charter schools that desperately need it. We have heard from a 
number of public charter school leaders, who have achieved amazing 
results in their schools, that some of the terms of this new definition 
would have prevented them from receiving financing or would restrict 
their expansion plans.
    In addition to reviewing the Charter Schools Program, we thank you 
in advance for examining all parts of the bill to ensure the same 
levels of accountability found in title V, part D are applied 
throughout the law. It is essential that our Nation do more to meet the 
educational needs of all children--including children of color, low-
income students, populations with disabilities, or non-native English 
speakers. We would like to see title II bolster efforts to provide 
children from underserved populations with exceptional teachers. The 
NAPCS has consistently witnessed that high performing charter schools, 
which typically serve a large proportion of low-
income and minority students, attribute much of their success to the 
caliber and commitment of their teachers. We support requiring some of 
the strongest provisions that are optional under the current proposal, 
such as recruiting, preparing, placing, supporting, rewarding and 
retaining highly rated teachers and principals in high-need, low-
performing schools.
    We thank you for the opportunity to submit written testimony. We 
look forward to continuing to work with your committee as ESEA 
reauthorization moves forward.
                                 ______
                                 
         National Conference of State Legislatures,
                                                  November 8, 2011.
Hon.  Tom Harkin, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
833 Hart Senate Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Senator Enzi: We are writing on behalf of 
the National Conference of State Legislatures (NCSL) both in response 
to recent legislation reauthorizing the Elementary and Secondary 
Education Act (ESEA) that passed out of the Senate Health, Education, 
Labor, and Pensions Committee and to present the views of the Nation's 
State legislators as you discuss the current iteration of ESEA, No 
Child Left Behind (NCLB), in today's hearing. NCSL's policy on ESEA 
reauthorization is attached for your reference.
    Because State legislators have a constitutional responsibility to 
establish and fund public education, they have a compelling interest in 
the reauthorization of this statute. In February 2005, NCSL's 
bipartisan Task Force on No Child Left Behind issued a report that 
recommended changes to the law, and discussed a productive and 
efficient role for the Federal Government in what has traditionally 
been an area of public policy funded and administered by the States. 
The law is now almost 10 years old and has not been reauthorized. 
Reauthorization of this statute will allow all States to benefit from 
corrections to the current law.
    First and foremost, we applaud the committee's recognition that the 
Adequate Yearly Progress (AYP) metric based on achieving a 100 percent 
proficiency standard in reading/language arts and mathematics based on 
standardized tests was a flawed and static measure. NCSL believes that 
the ability to focus on student growth over time, and the ability to 
use multiple measures rather than relying exclusively on standardized 
tests to evaluate performance, provides a more robust and appropriate 
measure of how schools are performing. The committee's approach of 
allowing States to set career- and college-ready standards is a more 
workable method, enabling States to build on the work they are already 
doing in content standards and on assessments.
    The Federal involvement in developing common standards and tests 
should be based upon and circumscribed by the language Congress used in 
Public Law 96-88 in 1979 to create the Department of Education, which 
did not include a directive regarding State allocation of their own 
funds, or for determining what paths States must follow to enhance 
student performance. The true virtue of the standards movement is its 
genesis in the States and its adaptability to State-specific 
conditions.
    One of the biggest problems with NCLB was that it was set up to 
over-identify failing schools. The Senate committee bill allows a focus 
on the lowest group of low-performing schools, which means more 
resources can be targeted to the schools that most need additional 
assistance. The bill is further enhanced by the flexibility offered to 
States to design a school turnaround plan that makes sense for its own 
schools.
    We hope that as the bill comes to the Senate floor, Congress will 
continue to discuss the appropriate way to set academic content and 
achievement standards for special education students. NCLB has required 
that special education students be tested at grade level, but the 
Individuals with Disabilities Act (IDEA), the Federal law governing 
special education, mandates that these students be taught according to 
ability. This is a basic conflict that presents difficulties for States 
as they seek to raise the achievement of all students. NCSL is pleased 
that an amendment allowing special education teachers to be exempt for 
the requirements regarding highly qualified teachers was adopted by the 
committee. Many special education teachers must teach multiple subjects 
and having them prove content knowledge in each subject is unrealistic. 
Data collected as a result of NCLB requirements has given us a better 
picture of the academic performance of special education students, and 
we look forward to continued discussion about the best way to meet 
their needs.
    NCSL is also pleased that the committee's legislation contains some 
additional flexibility from NCLB provisions regarding highly qualified 
teachers. There is no disagreement that well-prepared teachers with 
strong subject matter expertise can provide the kind of instruction 
every child needs. However, NCSL supports common sense provisions in 
the committee bill that allow States and districts to deal with the 
realities of staffing classrooms. These include allowing teachers of 
Native American, Native Alaskan and Native Hawaiian culture, language 
and history to be exempt from credentialing requirements that apply in 
other subjects, and allowing a teacher in a rural classroom to be 
supported by distance learning. This is another area where we hope the 
discussion is beginning, not ending.
    States are firmly committed to evaluating teachers and principals. 
However, decisions about these evaluations and how they should be used 
are best left to the States, and NCSL appreciates that the committee 
did not require this.
    NCSL remains concerned about possible Federal incursion into State 
school finance formulas. The committee bill requires that State 
education agencies develop and implement a plan to ensure that combined 
State and local per pupil expenditures are equal between title I 
schools and other schools. The complex issues around school finance 
equity are best resolved at the State and local level, and this action 
has implications for State funding formulas and finance laws.
    While the legislation does not contain every change in NCLB that 
NCSL is seeking, it represents a mostly positive step in correcting 
some of the worst imbalances of a well-intended but flawed Federal law. 
We applaud the Senate HELP Committee for its work so far. Knowing that 
many issues remain to be discussed when the bill comes to the floor of 
the Senate, NCSL looks forward to continued refinement of this 
legislation.
    For further information, please do not hesitate to contact NCSL 
State-Federal affairs staff Lee Posey (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="18747d7d3668776b7d6158767b6b7436776a7f">[email&#160;protected]</a>) or Michael 
Reed (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d70747e757c7871336f7878795d737e6e7133726f7a">[email&#160;protected]</a>) or call NCSL's DC office at (202) 624-
5400.
            Sincerely,
                                 The Honorable John Goedde,
                                                      Idaho Senate,
                                Co-Chair, NCSL Education Committee.

                                  The Honorable Roy Takumi,
                                   Hawaii House of Representatives,
                                Co-Chair, NCSL Education Committee.
                                 ______
                                 
      Attachment--NCSL Policy: Reauthorization of the Elementary 
                      and Secondary Education Act

    The current incarnation of the Elementary and Secondary Education 
Act, No Child Left Behind (NCLB), significantly shifted control of K-12 
education to Federal officials and away from State and local-elected 
officials. While the original intent of NCLB--to identify the unmet 
needs of all children in our education systems and promote education 
reform--is commendable, State legislators believe that current Federal 
policy dilutes the impact of limited Federal resources. NCLB also 
mandates the use of a flawed and discredited method of measuring 
academic progress that over-identifies failure and promotes a process 
and compliance model of Federal-State interaction, instead of allowing 
for State innovation.
    NCSL calls upon Congress to complete the overdue reauthorization of 
NCLB. State legislators believe that NCLB should be rethought in its 
entirety and calls on Congress to swiftly adopt legislation that:

    <bullet> Incorporates the recommendations of the NCSL Task Force on 
No Child Left Behind. These recommendations include revitalizing the 
State-Federal partnership; overhauling Adequate Yearly Progress (AYP); 
amending the State-plan approval process to make it more transparent 
and less arbitrary; and changing the sequence of consequences for 
under-performing schools;
    <bullet> Follows the concept of incentive-based programs as opposed 
to the coercive, punitive system at the heart of NCLB;
    <bullet> Acknowledges State constitutions and State-elected 
officials as well as basic principles of federalism;
    <bullet> Focuses on the need for effective teachers in classrooms, 
rather than meeting a Federal definition of ``highly qualified 
teachers''; and
    <bullet> Avoids penalties that reduce Federal K-12 funding for any 
State that shows continuous improvement in student achievement, and/or 
a closing of the achievement gap in that State, using any legitimate 
metric that is incorporated into State policy.
                                 ______
                                 
               Advocacy & Consulting for Education,
                                           Wayne, PA 19087,
                                                  November 7, 2011.

    Dear Senator Harkin: I am a federally trained special education 
advocate in Pennsylvania and am writing to you about the HELP Committee 
hearing tomorrow. It is my understanding that my name was submitted 
along with my biography to your office in preparation for testifying at 
tomorrow's hearing to discuss the reauthorization of the Elementary and 
Secondary Education Act. I wanted to follow up with you about offering 
my testimony tomorrow. I have thoroughly reviewed the reauthorization 
and am well-versed in the topic. In addition to my close review of the 
document, my training has provided me with a perspective that is 
particularly appropriate for this discussion. I am one of about 75 
people in the United States to have successfully completed the only 
Federal training for special education advocates, the Special Education 
Advocates Training (SEAT), offered by the Council of Parent Attorneys 
and Advocates through a grant from the Office of Special Education 
Programs.
    I am traveling to Washington, DC today for a Department of 
Education roundtable in advance of tomorrow's hearing, in conjunction 
with Parenting Magazine's Mom Congress initiative. I have previously 
served as the Pennsylvania representative for Mom Congress and 
currently function as the Special and Gifted Education Mentor. 
Following this discussion, I will be meeting with staff from Senator 
Bob Casey's office at 4:30 p.m. to discuss both the ESEA revisions and 
the TALENT Act. I would be honored to have the opportunity to speak 
about any part of the bill before the HELP Committee tomorrow, and to 
this end I am including three statements I have prepared. The first 
discusses the Act as a whole and particularly its stance on parental 
engagement, a key piece of this legislation that I am well-situated to 
discuss given my experience representing parents and children. The 
second statement discusses the TALENT Act, and the third is a 
combination of these two topics.
    In advance of the hearing tomorrow, I wanted to confirm that you 
had received my bio and share with you my thoughts. It would be a 
privilege to be able to provide feedback about this Act before the 
committee, and I am fully prepared to do so. Please let me know whether 
time and space will permit me to participate, and I will look forward 
to hearing from you or one of your staff. I can be reached today at 
(610) 529-9350.
            Sincerely,
                                            Melissa Bilash.

                              Attachments

                 ESEA AND TALENT ACT-COMBINED TESTIMONY

    Providing high quality education is about expectations and 
accountability. When we think about America's children we are 
considering a diverse and exceptional population capable of astonishing 
things. As you consider reauthorizing the Elementary and Secondary 
Education Act I would urge you to not forget our history, the realities 
of education, or the heights that our children can reach. We are poised 
to strike a balance between our greatest aspirations and the on-the-
ground challenges in education. It is my hope that, by enacting the 
TALENT Act and reauthorizing a more accountable Education bill, we can 
strike that balance.
    My name is Melissa Bilash and I am here to speak on behalf of 
parents and families. I am a federally trained special education 
advocate. My practice in Radnor, PA spans seven States and is dedicated 
to providing assistance and support to families of exceptional children 
seeking appropriate accommodations in the school setting.
    While the possibility of new methods is integral to progress in 
schools, there are some basics that we can never neglect. Every student 
should have a thorough needs assessment performed for each academic 
subject, each year. Students do not just have needs related to their 
academic ability, but related to their age, developmental abilities, 
social and emotional abilities, home life circumstances, and many other 
facets of their lives. All needs that will affect a student's academic 
capacity must be met and it is imperative that we do not overlook other 
educational needs because a student is able to do ``well enough'' 
without additional support. We must be providing support that makes a 
child's full potential a reality. The proposed bills are about seeing 
students as individuals and seeking to support them in meeting that 
potential.
    In this vein, I would encourage the committee to re-evaluate both 
pieces of legislation to provide tangible accountability wherever 
possible. The proposed parent and family engagement and differentiated 
education in both bills are promising steps towards this kind of 
accountability. I would ask that we take these measures even further.
    Parent and family member engagement can be strengthened in the 
reauthorization to assure school accountability. Establishing school 
compacts must require the written approval of at least 75 percent of 
parents and family members for enrolled students. Schools must be 
mandated to make and maintain contact with parents on a quarterly basis 
and also to be able to demonstrate this contact through careful 
recordkeeping. Finally, I would suggest that when providing assessment 
data, all parents and family members receive written notification of 
the family engagement mission statement of the ESEA and their rights 
within it. We know that parent and family member engagement is one of 
the most primary factors in student success. We would be short-changing 
this country's students if we did not demand accountable, documented 
parental engagement.
    The TALENT Act proposes a renaissance, not just in gifted 
education, but in the way we educate all students. I am excited to see 
this kind of goal-setting and evidence-based progress in education and 
would encourage the committee to do everything in its power to make 
these aspirations a reality. All schools should be required to return 
the results of at least one new strategy for identifying gifted 
students, one new strategy for instructing gifted students, and one 
gifted strategy that has been implemented in mainstream classrooms for 
the school year. By requiring the documentation of these strategies we 
are giving schools the opportunity to thoroughly assess their methods 
and evolve their programming based on the effectiveness of the 
strategies and the need of their students.
    If the No Child Left Behind Act has taught us anything it is that 
education is not a numbers game. We, as a nation, are invested in high 
quality instruction and career readiness for our students that 
acknowledges their learning needs and stimulates academic growth. 
Having worked with the families of many exceptional children I feel 
strongly that every child needs to be treated as an individual. To this 
end, we must continually develop new ways to identify needs and engage 
students and their families. This process will be unique to each school 
district, classroom, and student, but that does not remove the 
necessity of accountability to certain standards.
    My experience tells me that schools are often only able to meet the 
minimum standards required. If this is what we can expect of our 
schools, then we have a responsibility to set the expectations 
appropriately. I would appeal to the committee to mandate careful 
documentation of family engagement and to require schools to provide 
parents with information about their role in the educational process.
    Furthermore, as schools enact new strategies for identifying and 
instructing exceptional students and apply these methods to the wider 
population, I would encourage documentation and reporting of this 
progress. Accountability affords schools the opportunity to evaluate 
family engagement and new education strategies and to benefit from one 
another's experiences. This bill represents a bipartisan effort to 
reform our current educational policy; we must make the most of this 
momentum to ensure that our children have access to excellent 
educational opportunities as well as the chance to share our successes 
with the wider community. In this way, schools across the Nation can 
move forward together toward higher quality education.
    Thank you.

                             ESEA TESTIMONY

    Streamlining: the act of altering a process to make it more 
efficient and simple. Listening to the conversation about the 
Elementary and Secondary Education Act Reauthorization, streamlining 
public education seems to be lauded as its highest virtue. A simplified 
process will localize decisionmaking, reduce the number of 
participants, and remove many voices from the conversation As good as 
this sounds, a free, appropriate, public education will never be this 
simple.
    My name is Melissa Bilash and I am here to speak on behalf of the 
parents and families of exceptional children. I am a federally trained 
special education advocate. My practice in Radnor, PA spans seven 
States and is dedicated to providing assistance and support to families 
of exceptional children seeking appropriate accommodations in the 
school setting.
    A free, appropriate, public education involves the efforts of many 
individuals. It is necessary that administrators, teachers, school 
staff, and parents all work in conjunction to create programming and 
services that suit the needs of each unique learner. This can be an 
arduous and lengthy process that is ongoing throughout a child's 
academic life. Without the cooperation of each of these people the 
academics and overall development of a student can suffer irreparably. 
We cannot simplify, or streamline our way out of this conversation. We 
are learning all the time that parent and family engagement is vital to 
success in education. My greatest fear is that our desire for 
efficiency will offer only nominal opportunities for parent engagement 
or exclude families from education altogether.
    Karen Mapp, from the Harvard Graduate School of Education, has 
synthesized 51 studies examining the influence of family and community 
relationships on academic achievement. The studies spanned a wide 
diversity of cultures and the full range of K-12 grade levels. She has 
found not only that parents have the desire to be involved in their 
child's education, regardless of their own education level, ethnicity, 
and socio-economic background, but that many are involved in whatever 
ways they believe they can be. Without supporting these parents and 
providing them with the best possible information about how they can 
encourage academic success, we are ignoring a primary resource in a 
child's life.
    The ESEA Reauthorization addresses parent and family member 
engagement; however, we must require more than schools offering simple 
opportunities for parent and family member involvement. We have to 
approach this matter as it is presented to us: currently, many parents 
do not have the resources to take proper advantage of the opportunities 
for engagement that schools provide. Whether it is time, finances, 
education, or otherwise, we cannot assume that simply being given a 
greater chance to participate will allow parents to do so. This 
legislation needs to mandate greater communication between public 
schools and families of enrolled children. Schools arc responsible for 
setting curriculum, providing materials, and seeing to all other 
aspects of academic success. We must also demand that they communicate 
clearly with parents and go the extra mile to involve all necessary 
parties to a child's education in decisionmaking and programming for 
that child and for the school at large.
    In my work, I see the reality of federally mandated parent 
involvement every day. The process of creating and individualized 
education plan requires parent agreement and approval of an exceptional 
student's educational program. In these cases we are dealing with 
children who need specific accommodations in order to access their 
education, but all children should have this kind of specialized 
attention. All parents deserve the opportunity for authentic 
engagement, but in my experience, statutory requirements to involve 
parents are not always enough to ensure that a child is offered or 
provided with a program that meets their needs. These mandates do not 
prevent parents from needing the assistance of advocates or, in some 
cases, attorneys, in order to seek appropriate educational 
accommodations for their child. As someone who sees the effect of 
legislative requirements of parental involvement every day I would 
appeal to you to make the mandate for parental engagement as stringent 
and specific as possible.
    Parent and family member engagement can be strengthened in the 
authorization to assure school accountability. Establishing school 
compacts must require the written approval of at least 75 percent of 
parents and family members for enrolled students. Schools must be 
required to make and maintain contact with parents on a quarterly basis 
and also to be able to demonstrate this contact through careful 
recordkeeping. Finally, I would suggest that when providing assessment 
data all parents and family members receive written notification of the 
family engagement mission statement of the ESEA and their rights within 
it. We know that parents and family engagement is one of the most 
primary factors in student success. We would be short-changing this 
country's students if we did not demand accountable, documented 
parental engagement.
    This reauthorization places us in the privileged of learning from 
and correcting our mistakes. We have seen the detriment of highly 
standardized assessment of schools and students and we know that this 
is not a numbers game. To evaluate the true quality of education and 
student progress we must move forward into a system of realistic and 
measureable family engagement in our public schools. We must be wary of 
simplifying education too much. Appropriate education for individual 
students requires our careful and responsible use of all available 
resources to meet unique needs. We would ask that the committee think 
carefully about the balance of efficiency and quality education. Please 
do not streamline parents and families out of the schooling process. 
Setting concrete, accountable standards for public school engagement 
with families is the only way to assure continued involvement and the 
continued success of American students.

                          TALENT ACT TESTIMONY

    The TALENT Act is an opportunity for schools to recognize the gifts 
and unique needs of each student. This bill is a renewed chance to help 
our highest achieving students meet their potential and to improve 
programming across the board for all children. Teachers are regularly 
reporting the low priority that high achieving students receive in 
classrooms and schools. Coupled with the overarching problems facing 
public schools this paints a disheartening picture of public education. 
The TALENT Act could provide a renaissance in research, strategy, and 
methodology for gifted education and a greater focus on the unique 
needs of individual students of any academic ability.
    My name is Melissa Bilash and I am here to speak on behalf of the 
parents and families of exceptional children. I am a federally trained 
special education advocate. My practice in Radnor, PA is dedicated to 
providing assistance and support to families of exceptional children 
seeking appropriate accommodations in the school setting.
    According to the National Association for Gifted Children, 65 
percent of teachers report that education courses and teacher 
preparation programs focused either very little or not at all on how to 
best teach academically advanced students. Fifty-eight percent of 
teachers say that they have had no professional development focused on 
teaching academically advanced students in the past few years. It is 
clear that teachers are not receiving the support they need to properly 
educate high achieving students. When we consider that they are as many 
as 6 million gifted students in the school system, the lack of gifted 
instruction in schools comes into focus as an educational crisis.
    The best possible solution to the current state of gifted education 
is supporting the teachers who instruct and observe students every day. 
The Act's push towards specialized training for teachers and school 
staff is a promising and exciting opportunity. Administrators, 
teachers, and school staff should be afforded multiple chances to 
expand their abilities and required to take advantage of at least one 
training each school year. A commitment to supporting and providing 
resources to these professionals will change the tenor of education and 
refocus the system, not just on high ability children, but on how 
unique the needs of each student are, regardless of their level of 
academic ability.
    Having worked with the families of many gifted children I feel 
strongly that each of these children needs to be treated as an 
individual. To this end, we must continually develop new ways to 
identify and engage gifted students, based on the National Research and 
Dissemination Center for the Education of the Gifted and Talented, 
schools should be implementing at least one new method of identifying 
gifted students and one new strategy for instructing gifted students 
each year. It is vital that this research is implemented in schools so 
that high ability children are identified and provided with appropriate 
opportunities, but also so that we can begin a body of knowledge about 
which gifted education strategies and how they best serve the larger 
school population.
    While the possibility of new methods is integral to progress in 
schools, there are some basics that we can never neglect. Every student 
should have a thorough needs assessment performed for each academic 
subject each year. Gifted students do not just have needs related to 
their high ability, but related to their age, developmental abilities, 
social and emotional abilities, home life circumstances, and many other 
facets of their lives. All needs that will affect a student's academic 
capacity must be met and it is imperative that we do not overlook other 
educational needs because a gifted student is able to do ``well 
enough'' without additional support. The TALENT Act is about seeing 
children as whole individuals and seeking to support them in meeting 
their potential, no matter what it looks like.
    As an advocate for families of exceptional children, I support the 
TALENT Act and hope that it leads to real progress in differentiated 
education, not just for gifted students, but for all students. This 
bill is necessary to the well-being of children all over the country. 
We have a responsibility to mandate the identification, appropriate 
instruction, and support of our gifted young people. Currently, 18 
States do not collect information about gifted students and 21 States 
do not monitor or audit district programs for gifted students. For the 
sake of these students it is necessary to begin requiring tangible, 
documented efforts to improved gifted education.

    [Whereupon, at 12:29 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
